<html>
<title> - PUBLIC DIPLOMACY AND INTERNATIONAL FREE PRESS</title>
<body><pre>[Senate Hearing 108-450]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-450

                   PUBLIC DIPLOMACY AND INTERNATIONAL
                               FREE PRESS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 26, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



93-694              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
    Prepared statement...........................................     8
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Mater, Mr. Gene, The Freedom Forum, Arlington, VA................    28
Powell, Mr. Adam Clayton III, visiting professor, Annenberg 
  School of Communication, University of Southern California, Los 
  Angeles, CA....................................................    29
    Prepared statement...........................................    31
Tutwiler, Hon. Margaret DeB., Under Secretary of State for Public 
  Diplomacy and Public Affairs, U.S. Department of State, 
  Washington, DC.................................................     9
    Prepared statement...........................................    11
    Responses to additional questions for the record from Senator 
      Lugar......................................................    50
    Response to an additional question for the record from 
      Senator Nelson.............................................    54
Wimmer, Mr. Kurt A., Covington & Burling, Washington, DC.........    32
    Prepared statement...........................................    34

                                 (iii)

  

 
             PUBLIC DIPLOMACY AND INTERNATIONAL FREE PRESS

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Alexander, Biden and 
Feingold.


          OPENING STATEMENT OF HON. RICHARD G. LUGAR, CHAIRMAN


    The Chairman. This meeting of the Senate Foreign Relations 
Committee is called to order.
    We are looking forward, this morning, to a discussion of 
public diplomacy. As a matter of personal privilege, I want to 
mention that we've invited members of the International Center 
of Indianapolis to attend this hearing. They are here to hear 
you, Ms. Tutwiler and, likewise, the other witnesses. We're 
especially pleased that they can join us.
    Today, the Foreign Relations Committee will examine 
American public diplomacy and the development of free media in 
emerging democracies.
    Since the terrorist attacks of September 11, 2001, we have 
examined more deeply the standing of our Nation with people 
around the world. Americans are troubled by examples of very 
anti-American hatred in the Islamic world, and they are 
frustrated by public opinion in allied countries that seems 
increasingly ready to question American motives or blame 
American actions for a host of problems.
    In an era when allied cooperation is essential in the war 
against terrorism, we cannot afford to shrug off negative 
public opinion overseas as uninformed or irrelevant. We must 
clearly and honestly explain the views of the United States, 
displaying the humanity and generosity of our people, 
underscoring issues of commonality, and expanding opportunities 
for interaction between Americans and foreign peoples. Even the 
most enlightened public diplomacy will require resources and 
hard work over a period of decades.
    I am pleased to welcome a good friend of the committee, 
Margaret Tutwiler, the Under Secretary of State for Public 
Diplomacy and Public Affairs. Secretary Tutwiler holds one of 
the most difficult jobs in the U.S. Government, in my judgment. 
She is in charge of explaining and promoting American interests 
and policies around the world, and she oversees the State 
Department's efforts to foster greater understanding through 
educational and cultural exchanges. We are fortunate to have an 
official of her experience and gravity in this difficult role.
    Secretary Tutwiler understands that our definition of 
diplomacy must clearly be expanded. Diplomacy now includes the 
contentious public debate between democracies and 
dictatorships, as well as dialog with populations that are 
skeptical of American power and the freedom that we represent. 
As I stated in a committee hearing 2 weeks ago with Secretary 
Colin Powell, boosting the effectiveness and frequency of our 
communications with foreign populations will require a sea 
change in the orientation of the State Department, particularly 
as it relates to training, language expertise, and avenues of 
professional advancement.
    We are cognizant that Secretary Tutwiler has only occupied 
her post for a few months; therefore, we are asking her to 
focus much of her discussion on her plans for the near term.
    Following Secretary Tutwiler's testimony, the committee 
will hear from a distinguished panel of experts on the 
development of free media in the world, particularly in 
emerging democracies.
    Mr. Gene Mater is an advisor to The Freedom Forum. He 
served with American units after World War II that helped to 
reestablish a free press in Germany. Mr. Mater was a CBS News 
executive, and helped run the late International Media Fund.
    Mr. Adam Clayton Powell III is a professor of journalism at 
the Annenberg School of Communication at the University of 
Southern California. He has had a long career in public 
television, and has promoted the development of free press in 
Africa and elsewhere. Mr. Powell is also an expert in the new 
media technologies, including the Internet.
    Our final witness is Mr. Kurt Wimmer, a media law 
specialist with the firm of Covington & Burling. He has 
extensive experience in the newly democratic nations of Central 
Europe, including the former Yugoslavia.
    A fully successful United States foreign policy requires 
that we make progress in building democratic institutions 
internationally, especially free and open media. Societies that 
are built on the foundation of a free press are far less likely 
to abuse human rights or threaten American security.
    Democracies, however, may differ with American policies. 
That is their right in a free world. The U.S. Government, 
through various programs, has long been involved in training 
journalists around the world and establishing newspapers, 
magazines, and radio and television stations.
    These programs, however, are not centralized in one bureau 
or agency. Many are orphans to other assistance programs. They 
often are effective in training journalists, but they stop 
short of ensuring the media in a developing country has the 
necessary legal protections, follows basic rules of fairness 
and equal access, and can sustain itself financially.
    In addition, these existing U.S. media programs are not 
established in ways that leverage Federal Government spending 
with the assistance of America's vibrant media sector. There is 
a strong desire by our finest journalism schools, newspapers, 
broadcasters, and advertising enterprises to help build free 
press and open media in the world. We also need to engage all 
the new media, such as the Internet and wireless companies.
    After a review of government programs regarding the 
development of a free press in the world, I have concluded that 
U.S. Government initiatives do not go far enough to ensure that 
developing nations have a free, fair, legally protected and 
financially self-sustaining press and media.
    In response, earlier this week I introduced the 
International Free Press and Open Media Act of 2004. To better 
organize and focus these efforts, my legislation directs the 
Secretary of State to provide funding to the National Endowment 
for Democracy for the work of a free-press institute.
    For more than 20 years, the National Endowment for 
Democracy [NED] has been leading American efforts to help build 
the required democratic institutions of a free society. 
President Bush's proposed 2005 budget doubles the funding for 
the work of the endowment. Having served on the board of the 
endowment for a number of years, as have some of my Senate 
colleagues, I can attest that the independence of the NED is 
central to the success of its initiatives to help develop a 
free press in the world.
    This bill seeks to employ the uniquely independent 
organization of the NED to accomplish a mission that 
complements public diplomacy, but is separate from it. The U.S. 
Government maintains important public diplomacy programs where 
the goal is to communicate American views to the world. But 
developing a free press in emerging democracies goes beyond 
advocacy of American views. It requires us to have a tolerance 
for criticism, to take into account cultural differences, and 
to commit to long-term projects. The National Endowment for 
Democracy is well suited to this mission. And by creating a 
free-press institute within the NED, we would also provide 
private-sector media companies with a means to contribute their 
expertise and resources to the construction of an international 
free press.
    I thank our witnesses for joining this discussion. I look 
forward to their insights on public diplomacy and the 
development of free and open media.
    I look forward now to the opening statement of my 
distinguished ranking member, Senator Biden.


     OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., RANKING MEMBER


    Senator Biden. Thank you, Mr. Chairman.
    And I'd like to begin by, not only complimenting you on 
calling this hearing, but on your legislation. I think it's 
first rate, and I look forward to joining you and trying to 
help you pass it.
    The Chairman. Thank you.
    Senator Biden. Mr. Chairman, today we're going to look at 
the State Department public diplomacy programs, and we're not 
focusing on international broadcasting. And as I understand it, 
we are going to have an extensive hearing on that at a later 
time, so--but I think that is, I'd just say at the outset, one 
area where I think we've had some recent reason for optimism 
and some successes, I think. Not to suggest we haven't, as 
well, in the State Department. I don't mean to imply that. But 
I'm looking forward to that set of hearings, as well.
    The challenge of the Administration and for all of us is--
as American government officials--I think is fairly monumental, 
but I kind of look at this as the century of hope. I really 
think this is an opportunity that we have, because of the 
tragedy of 9/11, to begin to focus on 1.2 billion people in the 
world, who, quite frankly, we've, not out of any animus, but 
not really understood the Islamic world, the differences within 
it. It's a little bit like what--on occasion, in the past, when 
I'd travel to other parts of the world, other continents, 
people would talk about Europe and its attitude. Well, what do 
you mean, Europe? There is no European attitude, per se. The 
attitudes in Denmark are markedly different than the attitudes 
in Athens, in Greece, and so on. but we have tended to think of 
this as, sort of, a homogeneous notion of a group a hundred 
and--or 1.2 billion people, and I think this has given us an 
opportunity to--out of pure necessity, but we can turn it into 
a real positive--beginning to focus on how we better understand 
and communicate our values.
    I might add, at the outset here, my objective, I say to Ms. 
Tutwiler, is a little different than we usually talk about, in 
terms of public diplomacy. My objective, I would be very happy 
if the Lord came down and stood in the area between you and I, 
and said, look, you've got a choice. We'll guarantee you that 
over the next 10 years, 1.2 billion Muslims of the world will 
understand America's position thoroughly, they'll understand--
not accept it, not agree with it, not embrace it, not become 
pro-American, just understand it--understand our motives and 
understand our objectives and understand what we're saying, I 
would say, I'll take that. I'll take that. But we tend to think 
of public diplomacy in terms of we're going to convince people 
that they have to, or should, adopt our views, our values, our 
system. And I think that may be a bridge too far. But I'll get 
back to that in my questions.
    The challenge for this administration, and for all of us, 
as I said, is monumental. And to state it plainly, of late the 
American presidency and American policy are increasingly 
unpopular in other parts of the world. The polling data has 
been consistent over the past 2 years--actually have been 
consistent over the past 4 years; it just has had--as those who 
are real baseball fans would say, more pace on the ball the 
last 2 years, and it's been consistently bad.
    The most recent report by the Pew organization issued in 
July 2003 indicates that in ``most countries''--this is not 
just the Muslim world--``most countries, opinions of the U.S. 
are markedly lower than they were a year ago. The war has 
widened the rift between Americans and Western Europeans,'' the 
study indicates, ``further inflamed in the Muslim world, 
softened support for the war on terrorism,'' in both the Muslim 
world, as well as in other parts of the world, ``and 
significantly weakened global support for the pillars of the 
post-World War Two era--the U.N., and North Atlantic 
Alliance.'' The report continues: ``the bottom has fallen out 
of support for America in most of the Muslim world. Negative 
views of the U.S. among Muslims, which had been largely limited 
to the countries in the Middle East, have spread to Muslim 
populations in Indonesia and Nigeria, support for the U.S.-led 
war on terrorism also has fallen in most Muslim publics.''
    This is not a very pretty picture. And I'm not laying this 
at the foot of the administration. Let me make it clear to you, 
Margaret. I'm not--I mean that sincerely. This is a 
circumstance that is, all of a sudden, like a--as we Catholics 
might say, a bit of an epiphany here. I mean, it's just, like, 
whoa, look at where we are at the moment, based on what we 
haven't done in the past--what we haven't understood, what we 
haven't done, and what we are doing over the past 30 years. So 
this is not, you know, the fault of an administration, in my 
view. But it's not a pretty picture.
    The image of America overseas is perhaps a natural price of 
our status as a global superpower, and I think there's a piece 
of that. You know, it's--I think, everybody's--we, who do 
foreign policy for a living and have been doing it for decades, 
sometimes there are those among us who like to make it sound 
mysterious, because the more mysterious and complicated it is, 
the more intelligent we must be if we can master it; so we talk 
about the first tranche and the second tranche, instead of the 
first part and the second part, and we dress it up to make it 
sound very important and make us sound very important. But I 
think it's pretty simple. I think all foreign policy is, is the 
logical extension of human relations with a whole lot less 
information to go on. A whole lot less information to go on.
    And so the result is that we've been unable to adequately 
explain U.S. policy. My dad used to say, before he passed away, 
``I don't mind you being mad at me for a reason that is, in 
fact, factually accurate. The real problem is when you're angry 
with me for something that isn't factually accurate.'' And part 
of, I think, the problem we have around the world is, I don't 
think the factual rationale for what we've done and not done 
has been able to be adequately explained.
    But part of it is simple, and that is that, you know, 
nobody likes the guy who walks into the junior prom, and every 
girl turns and says, God, isn't he handsome? Or no one likes 
the girl who walks into the senior prom and says, boy, she is 
beautiful. Every other girl doesn't go, oh, don't we love her 
for being so beautiful? I mean, and that's kind of the position 
we're in, in part, no matter what happened, no matter what we 
did. If we did everything absolutely right, we are so dominant 
around the world.
    I will not mention the high-ranking French official with 
whom I had this conversation, but he started with me on 
American jeans--meaning pants, you know; we used to call them 
dungarees when we were kids--and, you know, ``too many of the 
French are buying''--and I said, whoa, whoa, whoa. Where's the 
trade agreement that says you must buy our jeans? Don't blame 
me for your population wanting to look at our culture. I don't 
like my kids listening to rap. Don't complain to me about us 
polluting your society. That's your problem, not ours.
    And so there's so much dominance on our part, even when we 
do everything exactly according to Hoyle, there's going to be 
resentment. But this is something more. This is something more 
that's happening here.
    And as the President likes to say, ``We're a nation at 
war.'' But one of my criticisms, some within this 
administration at a policy level, is that they seem to think 
that this war against terrorist organizations is merely one 
that's going to be waged on a military battlefield or in a 
military context or a military quasi-police context. But it's 
actually, in my view, a battle of ideas. This is ultimately a 
battle of ideas. All the major problems we face, none of them 
are soluble by a military solution alone. The military may be 
necessary, but it is not the only answer to the real problems 
that we face.
    This is a battle of ideas--a global struggle between the 
values, basically, of liberal democracies and ideologies of 
intolerance and destruction, and it has been engaged. It 
matters now, it seems to me, how we organize ourselves through 
this struggle, and whether we're willing to invest in this 
struggle.
    Now, again, it's understandable, in my view. This is a 
process. I often say, you know, if your granddaughters or 
grandsons and mine, years from now, are writing their senior 
thesis in some great American university, and the topic is, you 
know, did they get it right at the beginning of the 21st 
century, the kid who's going to get summa cum laude is the one 
whose title of his or her essay will be, ``Why were they 
surprised that they didn't get it right? Look how much has 
changed.''
    So this is a process. I can't think of any other time in 
history, where so much has changed since the Wall coming down, 
to the advent of international terror, to the unification of 
Europe and its self-preoccupation with that, a historical 
event, why we should be surprised we haven't figured it out 
yet; not just here in the Nation, but in the world. It's a 
process.
    But I'm optimistic about this process. I'm convinced, 
Margaret, and I say to my colleagues, that an essential 
ingredient in the solution or a new policy prescription as to 
how we deal with our place in the world has to be a robust 
program of public diplomacy. And we have to make, as the 
National Security Advisor said about helping to transform the 
Middle East, We have to make a generational commitment to a 
serious and sustained effort to engage foreign publics. 
Unfortunately and, as I said, in ways, understandably, this 
administration's commitment to this issue has been a bit 
tentative at the outset. That's understandable, in my view. 
This is all new. This is all new, in terms of the scope and the 
volume that the chairman and I and others, speaking with 
different points of view, are talking about.
    The President's budget in fiscal 2005 contains a slight 
increase for international exchanges budget of about $25 
million. Most of these increases are devoted, quite 
understandably, to exchanges in the Middle East and other 
regions important to the war on terror. But this increase 
contrasts with reductions in exchanges funding, that used to be 
provided under the SEED or Freedom Support Act accounts. And it 
may be that a decade has passed since the collapse of the 
Soviet Union, and we have many new friends in Central Europe, 
but, as the Iraq debate has demonstrated, we consistently need 
to cultivate those friendships.
    I would respectfully suggest the willingness or the ability 
to, in a sense, rob Peter to pay Paul, take money out of the 
SEED programs and put them in the Middle East is--all you have 
to do is understand, Europe doesn't like us. Europe is not 
happy about us. And, ironically, Eastern Europe, Central 
Europe, is the one place where we have--we have more support 
than we do in the rest of Europe. And I would argue that the 
need to communicate our point of view is equally as important, 
in a strange sense, among our allies and our newfound allies, 
as it is among those who we are trying to introduce, in a 
sense, to us.
    It may be that over the decade, as I said, the focus seems 
like it should change, but I would argue, and will argue 
throughout the next year this debate goes on, that that would 
be a mistake. It's obvious, in central Asia and even Russia, 
that democracy is hardly flourishing. And we have to stay 
involved, in my view.
    After September 11, the President invited ideas, from me 
and others, about improving public diplomacy. And he was 
generous with his time--I spent--alone, in my case, I spent 
over an hour with him. He asked what I thought, he was sincere, 
he meant it, and he asked me to put together a document, which 
I did, as to what I think we should do. I'm proud of it, but 
there's no pride of authorship, in the sense that this is the 
only proposal, a proposal on international broadcasting that I 
refer to as Initiative 911. And the problem--I think the 
President was more than intrigued by it; I think he agreed with 
most of it, at least he said he did--but there's a problem, it 
has a price tag. It's a half a billion dollars. Half a billion 
dollars the first year, and $265 million every year thereafter. 
The half a billion related to the infrastructure we'd need to 
set up, people you need to hire, foreign nationals, the 
transmission stations, et cetera. But I'm going to, at our next 
hearing on broadcasting, talk a little bit about that.
    Let me try to conclude here, Mr. Chairman. To paraphrase a 
statement made by the first President Bush in his inaugural 
address, when it comes to public diplomacy, we appear to have 
more will than wallet at this point. Money alone is not going 
to solve the public diplomacy problem. There is no question 
about it. But I'd respectfully suggest the public diplomacy 
problem will not be solved without spending a helluva lot more 
money. Money alone is not going do it, but I don't care if 
you're the Lord Almighty and you come down and reorganize all 
we have and limit the same amount of dollars we're spending 
totally on public diplomacy now, it will not get the job done 
for the immense task that is before us.
    We have proven programs in educational and citizens 
exchanges, cultural diplomacy, international broadcasting, all 
of which are working and important, but, I would argue, all of 
which are underfunded. And we only hurt ourselves and our 
national interest by our parsimony.
    Ambassador Tutwiler, I commend you for taking on this 
difficult job, but I think it's exciting. You must be excited. 
I mean, it's daunting, and you know you've got 6,000 interest 
groups and areas and positions coming down upon you for your 
time, attention, and agreement, but, as I've said when people 
say to me, why did you ever want to stay in this job for 
another term, I can't think of a more exciting time in my 
lifetime that I could be sitting on this committee than right 
now. It is dangerous, but it is also, I think, just filled with 
so much opportunity if we're smart enough and if we can get it 
right. And I'm not smart enough alone, by a longshot, but we 
can do this. And I think you--taking this job on is an awesome 
responsibility. I'm glad you were willing to do it. But I think 
it's also exciting, and I think together we may be able to do 
something really, really special over the next couple of years 
to enhance the interest of our country and the understanding of 
our positions around the world.
    So I thank you, Mr. Chairman, for allowing me the time. I 
thank you, Margaret, for taking it on, and I look forward to 
your testimony.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for convening this hearing today on State 
Department public diplomacy programs. I know we are not focusing on 
international broadcasting today, but I think that is one area where we 
had some significant success stories recently, and I hope we will turn 
our attention to it in the near future.
    The challenge for the administration, and for all of us as American 
government officials, is monumental. To state it plainly, America and 
American policy is increasingly unpopular. The polling data has been 
consistent over the past two years--consistently bad.
    The most recent report by the Pew organization, issued in June 
2003, indicates that in ``most countries, opinions of the U.S. are 
markedly lower than they were a year ago. The war [in Iraq] has widened 
the rift between Americans and Western Europeans, further inflamed the 
Muslim world, softened support for the war on terrorism, and 
significantly weakened global public support for the pillars of the 
post-World War Two era--the U.N. and the North Atlantic Alliance.''
    The report continues: ``the bottom has fallen out of support for 
America in most of the Muslim world. Negative views of the U.S. among 
Muslims, which had been largely limited to countries in the Middle 
East, have spread to Muslim populations in Indonesia and Nigeria, 
support for the U.S.-led war on terrorism also has fallen in most 
Muslim publics.''
    This is not a pretty picture. I want to emphasize that I am not 
blaming the Bush administration. The image of America overseas is 
perhaps the natural price of our status as a global superpower. It also 
stems from disagreements in foreign nations with U.S. policy. But is 
also the result of a failure adequately to explain U.S. policy. And we 
can certainly do something about that.
    As the President likes to say, we are a nation at war. But this war 
against terrorist organizations is not merely waged on the military 
battlefield; it is a battle of ideas--a global struggle between the 
values of liberal democracy and ideologies of intolerance and 
destruction.
    It matters how we organize ourselves for this struggle--and whether 
we are willing to invest in it. We must make, as the National Security 
Adviser said about helping transform the Middle East, a ``generational 
commitment'' to a serious and sustained effort to engage foreign 
publics.
    Unfortunately, and in ways that are perhaps understandable, the 
administration's commitment to this issue has been relatively modest. 
For example, the President's budget for fiscal year 2005 contains a 
slight increase for the international exchanges budget of about $25 
million.
    Most of these increases are devoted, quite understandably, to 
exchanges in the Middle East and other regions important in the war on 
terrorism. But this increase contrasts with reductions in exchanges 
funding that used to be provided under the SEED and Freedom Support Act 
accounts. It may be that over a decade has passed since the collapse of 
the Soviet Union, and we have many new friends in Central Europe. But 
as the Iraq debate demonstrated, we constantly need to cultivate 
friendships. And it is obvious that, in central Asia and even in 
Russia, democracy is hardly flourishing, and we have to stay involved 
there.
    After September 11, 2001, the President invited ideas from me and 
others about improving public diplomacy. He was very generous with his 
time. I gave him a proposal, developed with the assistance of the 
Broadcasting Board of Governors, to provide a significant expansion of 
U.S. international broadcasting to Muslim countries. It would have cost 
about half a billion dollars in the first year, and about $225 million 
in additional annual costs thereafter. The idea was dismissed by the 
administration as too costly.
    To borrow a statement made by the first President Bush in his 
inaugural address, when it comes to public diplomacy, we appear to have 
more will than wallet.
    Money alone will not solve our public diplomacy problems. But I 
respectfully suggest that we need to invest a lot more in public 
diplomacy. We have proven programs in educational and citizen 
exchanges, cultural diplomacy, and international broadcasting--all of 
which are underfunded. We only hurt ourselves, and the national 
interest, by such parsimony.
    I welcome Ambassador Tutwiler. I commend her for taking on this 
very difficult job. I look forward to hearing her views.

    The Chairman. Well, thank you, Senator Biden.
    Secretary Tutwiler, we're delighted that you're here. You 
have heard some enthusiasm from us already about you. We look 
forward to your testimony, if you would proceed.

 STATEMENT OF HON. MARGARET DeB. TUTWILER, UNDER SECRETARY OF 
         STATE FOR PUBLIC DIPLOMACY AND PUBLIC AFFAIRS

    Ambassador Tutwiler. Thank you very much.
    Senator Biden. Madam Secretary, I apologize for continuing 
to refer to you as Ambassador. I'm sorry.
    Ambassador Tutwiler. Anything.
    Senator Biden. Ambassador, Secretary, significant person, 
author----
    Ambassador Tutwiler. Margaret. It's fine. Margaret is fine.
    Mr. Chairman and Senator Biden, thank you very much for the 
opportunity to appear here today.
    Mr. Chairman, in the 2-years that I served as Ambassador to 
Morocco, I experienced firsthand the many public diplomacy 
challenges facing our Nation, especially in the Arab and Muslim 
world. I have a much better understanding of how our country is 
viewed, both the positives and the negatives, because of that 
service.
    Over the past 2 years, much has been written and debated 
about the effectiveness or in-effectiveness of the United 
States Government's public diplomacy activities and programs 
overseas. Helpful and responsible reports that all of you are 
familiar with by Ambassador Djerejian's Advisory Group, Dr. 
Abshire's Center for the Study of the Presidency, Council on 
Foreign Relations, the Heritage Foundation, have served to help 
us examine that which our government is doing well and that 
which can be improved. Many of their insights and 
recommendations, we can all agree upon.
    As we all know, and both of you gentlemen have pointed out, 
our country has a problem in far too many parts of the world, 
especially in the Middle East and Southeast Asia, a problem we 
have, regrettably, developed over many years, as Senator Biden 
pointed out, through both Republican and Democrat 
administrations, and a problem that does not lend itself to a 
quick fix, a single solution, or a simple plan.
    Much of what I learned about foreign views of our country 
has been from listening, engaging, and interacting with 
foreigners from all walks of life, and much of what I learned 
was troubling and disturbing. Regrettably, as we all have said 
here today, in too many nations, too many of their citizens 
have a very different view of the United States than we would 
obviously desire.
    In the brief time that I have been serving as the Under 
Secretary for Public Diplomacy and Public Affairs, I've gained 
a greater understanding and appreciation of what the Under 
Secretary's office, the three bureaus, the public diplomacy 
offices at the six regional bureaus, and our overseas posts do 
in the field of public diplomacy. In my opinion, just as it has 
taken us many years to get into this situation, it will take 
many years of hard, focused work to get out of it.
    I believe our strategic goals are clear. We need to 
continue to focus and deliver meaningful programs and 
activities in those areas of the world where there has been a 
deterioration of the view of our Nation. That deterioration, as 
we all know, is most stark in the Arab and Muslim world. At the 
same time, we must work equally hard in those areas where the 
opinion of the United States has not changed, to date.
    We should listen more, not only to foreign audiences, but 
to our own public diplomacy personnel overseas. Today, all PD 
officers are able to communicate and share ideas and 
information across all regions through a new interactive Web 
site devoted to public diplomacy, a site which was developed 
and operational in less than 2 months.
    Effective policy advocacy remains a priority, of course, 
and I believe that we basically do a good job of advocating our 
policies and explaining our actions overseas. Audiences may not 
agree or like what we say and do, but we are communicating our 
policies to governments and influential elites, including the 
foreign media. Our senior officials, Ambassadors, and embassy 
staff are out there explaining, every day, U.S. policy goals 
and initiatives. We can all, of course, do much better.
    We must do a better job of reaching beyond the traditional 
elites and government officials we interact with. We have not 
placed enough effort and focus on the non-elites, who, today, 
much more so than in the past, are a very strong force within 
their countries. This must be a priority focus now and in the 
future.
    We only have to look at the outreach activities of many 
U.S. corporations overseas to see the value of being present 
and engaged in neighborhoods that we, in government, have, for 
too long, neglected.
    We need to support those programs and activities that go to 
the bottom line of halting and reversing this deterioration. We 
need to constantly ask ourselves, as public servants, ``Is this 
activity or program still effective in today's world?'' If it 
is, we should keep it. If it is judged to no longer contribute, 
then we should let it go.
    We must develop effective mechanisms for evaluating program 
impact and effectiveness of all our programs and activities 
overseas. We must continue to pursue new initiatives and 
improve older ones, in the hope of reaching younger, broader, 
and deeper audiences.
    I believe we can all agree that programs that bring 
Americans and foreigners together, whether in person or even in 
a video or press conference, create greater understanding. We 
have numerous activities and programs in which we are doing 
this. I have highlighted and given details on many of them in 
my written testimony. However we do it, we must engage, listen, 
and interact, especially with the young. They obviously are the 
key to all of us living in a future peaceful world.
    Interagency coordination is essential to the effectiveness 
of public diplomacy. The new State USAID Joint Policy Council 
and the State USAID Management Council are intended to improve 
program coordination and public diplomacy, as in other areas, 
and help ensure the most effective use of program resources in 
both the Department and USAID.
    Regrettably, all too often our important and meaningful 
assistance to developing countries is going unnoticed and 
unappreciated, while other nations' assistance to these same 
countries is widely known and appreciated. This must change. 
Government-wide, we have to do a much better job of ensuring 
that the United States' efforts are widely known well beyond 
the foreign government officials we meet with. We can no longer 
afford for recipients overseas to have no idea that people of 
the United States provided assistance to their country and to 
their citizens.
    In closing, Mr. Chairman, let me say, again, that we all 
know there is much work to be done. We all know that our public 
diplomacy programs, those I have mentioned and others, must 
advance our national interest and do a better job of explaining 
not only our policies, but also who we are as a people. In the 
world of finite funding, we must ensure that our public 
diplomacy resources are used as effectively as possible. We 
must prioritize every day, and ask ourselves, ``Is this 
activity I am doing getting the job done for the United 
States?''
    We must listen to our field force. Today, the State 
Department has approximately 1,200 employees working in the 
field of public diplomacy. I would maintain that every 
American, regardless of agency or department, has to make an 
extra effort to communicate, to listen, and engage with not 
only our traditional audiences, but to audiences to whom we 
previously have not given as much time or effort. We must move 
beyond the walls of our embassies overseas and foreign-
government offices. I am realistically optimistic that we can 
achieve, over time, a better, healthier, and much more accurate 
impression of our Nation and people. No one, especially myself, 
underestimates the challenge and difficult task at hand.
    The public diplomacy officials I work with are reaching, 
questioning, and searching for more effective ways to enunciate 
our policies and have our values understood. We will continue 
to make mistakes, but I truly believe we will ultimately all 
get there together. We have absolutely no choice, in my 
opinion. We must do this.
    And I thank you very much for the opportunity to be here 
today.
    [The prepared statement of Ambassador Tutwiler follows:]

  Prepared Statement Hon. Margaret DeB. Tutwiler, Under Secretary of 
             State for Public Diplomacy and Public Affairs

    Good morning. Chairman Lugar, Senator Biden and members of the 
committee, thank you for the opportunity to appear before you today.
    In the years that I served as Ambassador to Morocco, I experienced, 
firsthand, the many public diplomacy challenges facing our country, 
especially in the Arab and Muslim world. In the two months that I have 
been serving as the Under Secretary for Public Diplomacy and Public 
Affairs, I have gained a greater understanding and appreciation of what 
the Under Secretary's office, our three bureaus, the public diplomacy 
offices of the regional bureaus, and our overseas posts do in the field 
of public diplomacy.
    Over the past two years, much as been written and debated about the 
effectiveness or ineffectiveness of the U.S. Government public 
diplomacy activities and programs overseas. Helpful and responsible 
reports by Ambassador Ed Djerejian's Advisory Group, Dr. Abshire's 
Center for the Study of the Presidency, the Council on Foreign 
Relations, and the Heritage Foundation have served to help us examine 
that which our government does well and that which can be improved. 
Many of their insights and recommendations we can all agree upon.
    As we all know, unfortunately, our country has a problem in far too 
many parts of the world today, especially in the Middle East and South 
East Asia, a problem we have regrettably developed over many years 
through both Republican and Democratic administrations, and a problem 
that does not lend itself to a quick fix or a single solution or a 
simple plan. Just as it has taken us many years to get into this 
situation, so too will it take many years of hard focused work to get 
out of it.
    I believe our strategic goals are clear. We need to continue to 
focus on those areas of the world where there has been a deterioration 
of the view of our nation. That deterioration is most stark in the Arab 
and Muslim world. At the same time, we must work equally as hard in 
those areas where the opinion of the United States has not changed to 
date.
    We should listen more, not only to foreign audiences, but to our 
own PD personnel overseas. Shortly, all PD Officers will be able to 
communicate and share new ideas amongst ourselves and across all 
regions through a new interactive Web site devoted to the concerns of 
public diplomacy.
    Effective policy advocacy remains a priority, and I believe we 
basically do a good job of advocating our policies and explaining our 
actions. Audiences may not agree or like what we say and do, but we are 
communicating our policies to governments and influential elites, 
including in the foreign media. Our senior officials, Ambassadors and 
embassy staff are out there explaining U.S. policy, goals and 
initiatives. We can all, of course, do better.
    We must do a better job of reaching beyond the traditional elites 
and government officials. We have not placed enough effort and focus on 
the non-elites who, today much more so than in the past, are a very 
strong force within their countries. This must be a priority focus now 
and in the future. We only have to look at the outreach activities of 
many U.S. corporations overseas to see the value of being present and 
engaged in neighborhoods that we in government have for too long 
neglected.
    We need to support those programs and activities that go to the 
bottom line of halting and reversing this deterioration. We need to 
constantly ask ourselves, ``Is this activity or program still effective 
in today's world?'' If it is, we should keep it. If it is judged to no 
longer contribute, then we should let it go. Developing effective 
mechanisms for evaluating program impact and effectiveness is a 
priority. I have pulled together a team from our three bureaus to work 
with the regional bureaus and posts abroad to begin a comprehensive 
review of all public diplomacy programs. This will be a first step in 
establishing a continuing process of performance measurement and 
program evaluation.
    We must continue to pursue new initiatives and improve older ones 
in the hopes of reaching younger, broader and deeper audiences.
    I believe we can all agree that programs that bring Americans and 
foreigners together, whether in person or even in a video or press 
conference, create greater understanding.
    As Under Secretary, I would like to see us expand our exchange 
programs however we can. Last year, the State Department directly 
sponsored over 30,000 academic, professional and other exchanges 
worldwide. Exchange programs constitute the single largest part of the 
State Department public diplomacy budget, $316,633,000 in FY-2004, 
which regrettably is $28,713,000 less than the President's request 
including a rescission of $3,367,000. Within this amount, we must set 
priorities.
    Allocation of exchange resources already reflects the priority of 
the Arab and Muslim world. 25% of funding for exchanges will go to 
programs in the Middle East and South Asia in FY 2004, compared to 17% 
in FY 2002. We have restarted the Fulbright program in Afghanistan 
after a twenty-five year hiatus. Twenty Afghan Fulbrighters will arrive 
next month. Just a few days ago, 25 Iraqi Fulbright students arrived 
here for orientation prior to beginning their regular studies.
    Through our School Internet Connectivity Program, 26,000 high 
school students from the Middle East, South Asia, South East Europe, 
Central Asia and the Caucasus currently collaborate in online projects 
on current affairs, entrepreneurship, health, and civic responsibility 
with U.S. students.
    Expanding the circle of opportunity is the concept behind 
Partnerships for Learning (P4L), an initiative of the Bureau of 
Educational and Cultural Affairs (ECA), which seeks to extend our 
exchange programs to undergraduate college students and also high 
school students. P4L has initiated our first high school exchange 
program with the Arab and Muslim world. Today, 170 high school students 
from predominantly Islamic countries are living with American families 
and studying at local high schools. Another 450 high school students 
from the Middle East and South Asia will come here in 2004 for the next 
academic year. Small numbers, but a beginning.
    In addition, seventy undergraduate students, men and women, from 
North Africa and the Middle East will come to the U.S. beginning next 
month for intensive English language training prior to their enrollment 
in university degree programs.
    In other forms of engagement, since 9/11, the Bureau of Public 
Affairs has organized over a thousand digital video conferences between 
American officials and experts and foreign audiences. In the past year, 
we facilitated nearly 500 interviews and press conferences with senior 
officials from the Department of State for foreign media outlets. The 
Bureau of International Information Programs (IIP) has quadrupled its 
output of Arabic language translations for distribution.
    Public Affairs worked with our Embassy in Jakarta to broadcast this 
year's State of the Union Address live, with simultaneous 
interpretation in Bahasa Indonesian. Print and broadcast media covered 
the address extensively. One national radio station carried the entire 
broadcast live, reaching millions in this predominately Muslim nation.
    These are exactly the kinds of initiatives I believe we should be 
pursuing. A new initiative which I am exploring is the idea of micro-
scholarships for English learning and to attend our American Schools 
overseas. The U.S. has been incredibly successful with micro-credits 
for entrepreneurs and small businesses. Why not take that same concept 
and apply it to education and English language learning?
    Another program which holds promise is American Corners. In recent 
years we have had good results from our American Corners program which 
as you know constitutes partnerships between our embassies and local 
institutions like libraries, universities and chambers of commerce. 
These corners are a source for information outreach at the grassroots 
level.
    We currently have more than 100 American Corners around the world. 
In FY04, we are planning on opening 194 more in 64 countries. Of these 
194, IIP is working with Near Eastern Affairs and South Asia bureaus to 
establish 58 more American Corners in those regions, including ten in 
Afghanistan and fifteen in Iraq in FY 2005.
    Just last month, we opened two new American Corners in Bosnia, 
Herzegovina, in Zenica and Tuzla, cities with sizable Muslim 
populations and religious teaching centers.
    Virtual consulates, could be another tool for reaching wide 
audiences. The virtual consulate concept is a commitment by personnel 
in a U.S. Mission overseas to periodically travel to a chosen outlying 
district in order to make live personal presentations and informally 
mix with the people of the visited region. The travel is supported by a 
special Web site that celebrates connections between the Americans and 
the people and institutions of that region.
    English teaching: To strengthen English teaching programs, ECA is 
devoting an additional $1,573,000 to these programs. This is not 
enough, but it is a start. Whether through direct teaching or training 
instructors, English language programs offer great scope for advancing 
public diplomacy objectives. For example, over the past five years, 
Embassy Damascus estimates that it has trained over 9,000 of Syria's 
12,000 English-language teachers, a excellent example of meaningful 
outreach.
    Book Programs: IIP has developed ``book sets'' about American 
history, culture and values for younger audiences around the world. 
Embassies donate these ``book sets'' to local libraries and primary/
secondary schools. As of September 2003, embassies worldwide had 
distributed over $400,000 worth of book sets. We are examining our 
overseas book buys and journal publications as well.
    Private Sector Cooperation: We have created a new position in my 
office to explore ways to draw on the expertise of the private sector 
to advance our public sector objectives. We can expand public-private 
partnerships, initially focusing on key industries such as technology, 
health care and education.
    There is much more we can do in the field of sports. We know from 
past experience that an effective outreach to youth is through sports 
activities.
    Through ECA's new Culture Connect program, America's cultural 
leadership directly communicates with elite and non-elite foreign youth 
about our country and values. We currently have ten Culture Connect 
Ambassadors, and we are going to expand the program this year.
    Television offers a powerful tool for public diplomacy and public 
affairs. We are using co-operative programming with local broadcasters 
and exploiting new distribution channels and technologies to create a 
fuller, more accurate picture of the U.S. for general audiences abroad. 
Over the past two years, we have funded several hundred foreign 
journalists both for broadcast and print media overseas, more than half 
of which have been in Muslim majority countries. We intend to increase 
these types of journalist tours.
    Speaking of television, I cannot neglect to mention the launch of 
Alhurra, the new Middle East satellite television network of the 
Broadcasting Board of Governors, on which I serve as the Secretary's 
representative. Alhurra is on the air in twenty-two countries in the 
region; it will go 24/7 in mid-March. Arabic media reaction is 
skeptical, as we would expect. But ordinary viewers have been 
responding much more positively. To quote just one e-mail received by 
Alhurra's Web site:

          What you have started is very big step towards real democracy 
        implementation and education in the Middle East. The mission is 
        clear, just pray that you are successful in communicating your 
        message and mission to those who need it.

    However we do it, we must engage, listen and interact--especially 
with the young. They are the key to a future peaceful world.
    Interagency coordination is essential to the effectiveness of 
public diplomacy. The President's Middle East Partnership Initiative 
(MEPI), whose mission is to support economic, political and educational 
reform in the Middle East and North Africa, integrates policy, public 
diplomacy, development and technical assistance programs throughout the 
region. We will continue working with the White House to insure close 
coordination of our messages. The White House coordinates a daily 
conference call on public diplomacy vis-a-vis Iraq. The new State-USAID 
Joint Policy Council and the State-USAID Management Council are 
intended to improve program coordination in public diplomacy, as in 
other areas, and help ensure the most effective use of program 
resources in both the Department and the U.S. Agency for International 
Development.
    Regrettably, all too often, our important and meaningful assistance 
to developing countries is going unnoticed and unappreciated, while 
other nations' assistance to these same countries is widely known and 
appreciated. This must change. Government-wide, we have to do a much 
better job of insuring that the U.S.'s efforts are widely known well 
beyond the foreign government officials. We can no longer afford for 
recipients overseas to have no idea that the people of the United 
States provide assistance to their country.
    In closing, Chairman Lugar and Senator Biden, let me say again that 
we all know that there is much work to be done. We all know that our 
public diplomacy programs, those I have mentioned and others, must 
advance our national interests and do a better job of explaining not 
only our policies, but also who we are as a people.
    In a world of finite funding, we must ensure that our public 
diplomacy resources are used as effectively as possible. We must 
prioritize and ask ourselves, ``Is the activity I am doing getting the 
job done?'' We must listen to our field force.
    Today the State Department has approximately 1,200 employees 
working in the field of public diplomacy. I maintain that every 
American, regardless of Agency or Department, has to make an extra 
effort to communicate, listen, and engage with not only our traditional 
audiences, but to audiences to whom we previously have not given as 
much effort and time. We must move beyond the walls of our embassies 
overseas and foreign government offices.
    I am realistically optimistic that we can achieve over time a 
better, healthier and much more accurate impression of our nation and 
people. No one, most especially myself, underestimates the challenge 
and the difficult task at hand. The public diplomacy officials I work 
with are reaching, questioning and searching for more effective ways to 
enunciate our policies and have our values understood.
    We will continue to make some mistakes but I truly believe we will 
ultimately get there. We have no choice. We must.
    Thank you--I will be happy to take your questions.

    The Chairman. Well, thank you very much, Secretary 
Tutwiler.
    Let me just mention, for the benefit of the Senators 
assembled, as well as our witnesses, that as we came in this 
morning, we found that a very complex unanimous-consent 
agreement has been reached by the leadership of the Senate on 
progress on legislation on the floor today. It appeared that 
the first vote would occur at 10 a.m., which was about 5 
minutes ago. But, obviously, it has not occurred. And the Chair 
has received word that the vote will occur more likely at 11 
a.m. However, the agreement calls for two more votes that were 
estimated at 11:30. Hopefully, we will have some respite.
    Let me suggest that we will try to have 8-minute limits for 
Senators' questions. I hope Senators will be able to confine 
their enthusiasm to the 8 minutes, including your answers.
    In that way, we will proceed through our questions, and we 
will hear testimony from our second panel of witnesses, 
hopefully, before we all scatter for the first vote. In any 
event, just for the benefit of the witness and the audience, we 
will be back and forth in this process. This is a suggestion 
for the management of time while we are proceeding with this 
hearing.
    Let me start the questioning, Ambassador Tutwiler--or 
Secretary Tutwiler, by asking what sort of indicators does the 
Department now have? What kind of indicators might we 
construct, to see how well we are doing? I appreciate it may 
not be as precise as the Pew poll, which asks the question, do 
you like America, or don't you, or whatever they ask. The Pew 
poll finds a very large percentage of people in the negative. 
But even if you had that simplistic a situation, and you found, 
after a while, that 20 or 30 percent more people found favor 
with the United States, that would indicate something. I am 
just curious, with regard to messages that we have, quite apart 
from overall sentiment, or even disaggregated by age groups, or 
by ethnic groups within countries, or, through our Ambassadors 
or through others, what kind of polling do you have? Do you 
divine anecdotally whether we're making progress?
    Ambassador Tutwiler. Correct. Concerning literal polling, 
that is not something that falls under public diplomacy at the 
State Department; that comes under INR. PD does give them a 
small amount of money, to be candid, to do some specific 
things, basically on judging attitudes. And so we work very 
closely with them. They do excellent work, in my opinion. I 
knew that from my previous service in the State Department, 
with Secretary Baker. But day in and day out, that has not been 
one of my priorities.
    But I will tell you, as far as measuring effectiveness, it 
is a very legitimate concern, both of the Congress and of this 
administration and of the State Department. And since 9/11, 
there are some tools that are being applied, and we're actually 
learning things, which is a good thing.
    Having said that, I would also say, and I believe that, 
that you alluded to such, some of this is not measurable. I'm 
not positive how we measure an 18-year-old's year experience 
in, say, Nashville, Tennessee, or my hometown of Birmingham, 
Alabama, the effect that is going to have over that 
individual's lifetime for the United States.
    So we are trying. As you know, ECA is spending over a 
million dollars and doing a second set of interviewing on 
exchange students that come here. Public Affairs is doing more 
in the area of actually tracking where our product is seen. And 
IIP, the third bureau, is doing the same thing. So we are 
trying. We recognize it and know it is important, and we're 
going to keep pushing ourselves to find new ways to check, for 
ourselves and for you, the effectiveness of what we're doing.
    The Chairman. Well, one of the enthusiasms that has been 
expressed, both at your confirmation hearing and today, and 
that we have for you, is that you are, in addition to being a 
State Department person, you are a political person. You 
understand the trends of popular opinion, and the importance of 
moving people, and persuading them.
    Now, as you say, this may be segmented technically. You 
have INR doing the polling, and other people doing the 
scholarships and the exchanges, and so forth, not all under 
your purview. I suppose that the committee, maybe unfairly, is 
looking to you for some overall guidance, and maybe even some 
degree of administration of these affairs.
    To take the example that you just utilized, it's very 
clear, I think, from the past, that students coming to the 
United States, studying in this country, whether they came as 
civilians or military students or at various ages, frequently 
return to their home countries with leadership modes and 
attitudes that are very different and that make an enormous 
difference in the quality of life of their countries; but even 
more importantly, a quality of life that begins to mesh their 
values with ours. In other words, they like human rights; they 
believe in the rights of women; they believe in free 
expression. They may not fully believe in it, but, on the other 
hand, they've come a long way. In some cases, they become very 
powerful advocates, armed and articulate with language 
abilities and expression. That is difficult.
    On the other hand, it's important that we have some method 
of gauging how many of these students there are, tracking them, 
seeing----
    Ambassador Tutwiler. Right.
    The Chairman [continuing]. What they do. The reason I'm 
onto this accountability thing, is that you mention that there 
are 1,200 people in public diplomacy. Now, somebody who doesn't 
share the enthusiasm of Senator Biden and Senator Hagel and me, 
might very well say, that is a lot of people. What are those 
people doing? What kind of an impact are 1,200 people making on 
this thing? And here are all these people all over the world 
who testify that they don't like us. Who are they? This is why, 
even as we push ahead--and we have to--we really have to be 
able to make a case to the American public of how we're doing. 
I don't ask you for all the answers to that, but, as a person 
who is very savvy in both diplomacy and politics, please try to 
think through public indicators, public diplomacy with the 
American people, even as we are proceeding to do this work 
elsewhere.
    Ambassador Tutwiler. I understand exactly what you're 
saying. And my world, like all of your worlds, is politics plus 
foreign policy. And part of what I hope I have brought back is 
an approach, when I continue to talk about we must do a better 
job of reaching non-elites. That's another word for masses. The 
reason I say that, sir, is that for decades we have done, and 
still do, and are trained to do, basically a good job of 
government-to-government bilateral work, Foreign Ministry to 
State Department, Finance Ministry to Treasury, et cetera. We 
have also put a great deal of our emphasis on opinion leaders 
and elites. Many of the individuals you talk about that we've 
brought over here, if we went back and looked--and I'm not 
against it--are really from an elite element.
    Well, the world has changed, as we all know, and as Senator 
Biden talked to and as you have talked to, radically changed. 
And it was before 9/11, in my mind. And with the access of 
information in many, many parts of the world now, which we 
advocated for decades, you have enormous populations--
enormous--in some instances, have never met an American, much 
less know about us.
    And so one of the things I hope to bring back to this is--
in terminology that my colleagues at the State Department will 
not like, is a grassroots effort. What are we doing to reach 
these masses that have no opinion of us, have not traveled 
here, probably will not get a scholarship to come to the United 
States because there are very powerful political forces in 
their countries. And we have simply got to find an allocation 
of our time, as public servants overseas, to spend more time 
engaging, in my opinion, with this political force that is real 
and that exists and has, regrettably, very little knowledge 
about us.
    If I may, one more thing. You're correct, there are 1,200 
employees basically working in public diplomacy. I would remind 
your audience that that is worldwide, that is in over two 
hundred and, what, forty posts. That is not a lot of people. 
And when you look at the numbers, which I did since I've gotten 
back, in the 1990s there were 2,400. So those are the cuts that 
have been taking place in public diplomacy.
    The Chairman. I thank you very much for that forthcoming 
answer. We had one hearing in our committee in which we tried 
to bring together, as I remember, the State Department, 
Immigration, Treasury, to discuss the impact of our homeland 
security on the problems that you have to face. Now, that's 
even a more daunting problem when you have to deal with all 
these other Cabinet people. But the fact is, public diplomacy 
is affected by the problems that students have trying to get in 
the country, or tourists, or business people. Maybe for good 
reason. But, at the same time, somebody has to exercise some 
overall common sense, some direction, in terms of the public 
diplomacy aspect.
    I hope your voice will be heard. We will try to make our 
voices heard along with you.
    Ambassador Tutwiler. I will try. If I may, sir, may I 
answer you this way? When I talk about--it's easy to talk about 
big picture, here's what we should be doing. One attempt I've 
made in the time I've been this is--as you know, on February 4, 
I said to the--in the House testimony that I was looking at 
micro-scholarships for non-elites. Well, I can tell you today 
and report that we're doing them.
    The Chairman. Good.
    Ambassador Tutwiler. And that is in less than 2 months. We 
are starting in five countries, and we have--I'm looking for 
money to bring from other parts of the State Department. But 
we're doing it. And that's something we've never done before. 
We're reaching down into this audience that is so important, 
and we're going to, without having to address the visa problem 
or the expense of coming here, for basically less than a 
thousand dollars a person, we can give someone an opportunity 
to learn English for a year. And we are about that business, 
and we are doing it, and it has started.
    The Chairman. Great.
    Senator Biden.
    Senator Biden. Madam Secretary, I'm enthusiastic about your 
sense of how to proceed here. You know the numbers. The four of 
us, five of us, know the numbers. You have, in Iran, if memory 
serves me--this is from memory, don't hold me exactly to the 
numbers--but I think over 60 percent of the Iranian population 
is under the age of 15 or 14; 60 percent of the Arab world is 
under the age of 18. And we've got a problem. We've got a 
problem. We have a phenomenal opportunity.
    I know we're going to do this later, about broadcasting, 
but just one example, Radio Sawa. We went and got a guy--we, 
all of us, went and got a guy who made hundreds of millions of 
dollars here--I think hundreds of millions--coming up with an 
idea called Westwood One. You know, when you fly back and forth 
across the Nation, and you put on your headsets, and you hear 
programming on the phone. This is the guy that put that 
together. Then he ended up owning some big companies and has 
done very well.
    So I took a page from--and I mean this sincerely--from my 
Republican colleagues about engaging the private sector. This 
guy came and sat down and said, hey, look, I'm confident we can 
put together the first-rate, most-listened-to radio station in 
the Middle East in a matter of months. And everybody looked and 
said, come on, give me a break.
    You know who the best-known people in Egypt are? The same 
people who are the best-known people in America. Britney Spears 
is a helluva lot better known than Joe Biden or Dick Lugar or 
the distinguished Senator from Tennessee, whether that's good, 
bad, or indifferent. Every rock star--rock stars are the single 
best-known people in Egypt, in Iran. And so that's what these 
kids listen to.
    So, guess what? Through their ingenuity they put together a 
station that's now the single most-listened-to station in the 
Middle East. And guess what? It has news as part of it. You've 
got to get 'em to listen to something. They ain't gonna turn 
on, you know, C-SPAN2. They're not going to turn on public-
access television. Seriously. It works.
    Now, how we measure the effect of this, that's a different 
question, and that's a hard deal, which leads me to my first 
question. I'll submit it in writing. I don't expect you to go 
into it now. But over the next month or so--I'm not even 
looking for an immediate answer--I'd like to know what the 
mission statement is, if you will, as to what we mean by public 
diplomacy, what it is. What do we mean by it?
    I, like many of my colleagues, have made it a habit the 
last 2 years of not only hiring staff that has expertise in 
Arabic, Islam, and people from the great universities we bring 
in here, who have Ph.D.'s in these subjects, but I also have 
made it a practice, as my colleagues have, of bringing in some 
of the best-known Arabic scholars, Muslim scholars, and 
scholars on the Middle East in the country. And I bring them in 
regularly, in groups of two to six people. And they are willing 
to sit there--one of the great advantages of this job, it's the 
ultimate--I mean, it is a intellectual feast, to take a phrase 
from former Judge Bork, and being able to get anybody you want 
to come and talk to you, from Nobel laureates to whatever.
    At any rate, they all say--when I started off talking about 
public diplomacy in terms of changing minds, they said, whoa, 
whoa, whoa, whoa. That should not be the goal of public 
diplomacy, to accept American foreign policy, accept our 
values, accept--but to understand, to arm moderates within the 
Muslim world, with arguments against the fundamentalists as to 
why we aren't the same, whether we agree or not. For example, 
I'd be delighted if, tomorrow, Iran turned into a democracy--it 
wasn't even pro-U.S., it was a democracy. I'm not looking for 
it to be pro-U.S. I'm just looking for it not to be anti-U.S. 
and anti-democratic.
    So I'd like to know--not now, but in a statement at some 
point--what you all think is the objective here. What's the 
mission statement of public diplomacy? \1\
---------------------------------------------------------------------------
    \1\ See response of Under Secretary Tutwiler to the request for 
mission of public diplomacy in a letter to Chairman Lugar, which 
includes U.S. Department of State Public Diplomacy Strategy Report, 
March 1, 2004, on page 50.
---------------------------------------------------------------------------
    And the specific question I have, before my time runs out 
here, is that--and it goes off what I thought where the 
chairman was going. We have, sort of, inherent conflict you're 
going to run into, and you already have. We want very much to 
increase exchange programs. All of us here, I think. I think 
it's bipartisan and universal. But we're running into a problem 
now, and that is, let's assume tomorrow there was a consensus 
here to increase exchange programs by 100,000, and fund them. 
There is a countervailing force here that says, whoa, whoa, 
wait a minute. In order to be admitted into this country on an 
exchange program, we've got to think of this differently. 
There's new hoops--and I'm not being critical; this is 
something that has to be worked out--new hoops that people have 
to go through.
    There is an enthusiasm and the knowledge on the part of the 
American public to know we've got to spread the word here about 
who we are. I think the average guy in any town in my city, in 
a rural community--we're one of the most rural states in 
America, in terms of population of our cities--and they 
understand we've got to get our message out, but they also are 
worried about, you mean you're going to bring in 10,000 Arab 
kids, 10,000 Muslim kids to our universities? You're going to 
bring 'em in?
    So I'd like, also, for the record, for you to have your 
staff lay out for us what kind of hurdles we have to overcome, 
if there are any, as we increase the exchange programs and meet 
this new understandable desire to track anybody who comes into 
the country as it relates to an education visa here.
    And the last point I'd like, for the record, for you to 
take a look at is, I'm of the view, a little bit like what the 
Senator and former Senator--the chairman and former Senator 
Bradley and I, in different iterations, tried to do back in the 
early 1990s, which was not only increase the exchange programs 
for college students, but also for high school students. And it 
seems to me there needs to be an aggressive new--or an 
imaginative new program, either in-place, in-country or here, 
exposing that portion of particularly the Islamic world, that 
is overwhelmingly young, to American language, American books, 
American--Western, if you will, ideas--not to brainwash them 
but to give them an opportunity to understand where we are.
    So I would very much like you to give me a sense of what 
you are thinking about exchange program, in terms of cadres of 
people we're looking at, whether it be the traditional emphasis 
on college and post-graduate, or there should maybe be a new 
emphasis in a way that I'm not quite sure how it would work, in 
terms of high-school-age students.
    So my time is up. I will stop. If you wish to comment, 
fine. I understand if you want to do it all in writing.
    Ambassador Tutwiler. I will comment briefly. No. 1, I agree 
with you, defining ``public diplomacy,'' those are two big 
words, in political terms, we could drive a Mack truck through. 
And so it has been done, it's been bureaucratically done. I 
know what you're asking. I will take an attempt at what it 
means. But within that framework, I think we both agree that it 
is wide enough in its meaning, and broad enough, that it's also 
left up to how it's implemented.
    No. 2, I am more than well aware, having served as 
Ambassador through the new visa policies of the United States, 
what that has--the difficulties that have been associated with 
it. I will tell you, the first year as Ambassador in Morocco, 
it was very difficult that summer. As you know, we continue to 
get--we continue to massage it, we continue to get it better as 
a nation. And it is something that obviously all of us have on 
our radar screens when we talk about bringing people here.
    On high schools, we are doing that. It started before I 
came into this job. I am very focused on it, based on 
experience of living in an Arab Muslim nation of 30-plus-
million, the majority of whom are all young. So we are in sync 
with you. We are on that. And it's something that we hope to 
get more high schoolers and more engaged with high schoolers.
    Senator Biden. Thank you very much.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Madam Secretary, good to see you again. We're glad you're 
on the job. We are enthusiastic and supportive, as you have 
noted this morning, and we want to help in every way that we 
can.
    Ambassador Tutwiler. Thank you.
    Senator Hagel. I appreciated your testimony, specifically a 
couple of points of focus. One, on non-elites and your 
analysis. And I think you are exactly right. That non-elite 
universe requires specific focus on the younger people. And, 
again, I think you have focused exactly on the right elements 
here. Now, how you do that, how we accomplish it, that's 
another matter, as you have noted.
    The first question I have is how does the State Department 
currently integrate public diplomacy policy, public affairs 
policy, into the policymaking process? For example, do you have 
a seat at the table on policy issues regarding Iraq, the Middle 
East peace process, Afghanistan? How does that all work within 
the fabric of policymaking, your piece of this?
    Ambassador Tutwiler. Correct. There is not a formalized 
system of that, to be honest with you; nor was it when I served 
before in the State Department. As you know, Secretary Powell 
100-percent understands the importance of communications and 
public diplomacy. So throughout all levels of the State 
Department, there are individuals, who have the PD component, 
who sit in various meetings that go on all day long at the 
State Department on Iraq, on Afghanistan. We coordinate, in an 
informal way, or at least it's been my style, an informal way 
with the Pentagon, with the NSC, throughout the State 
Department. And then there are formalized meetings that go on.
    So whether it's me personally or it is other qualified 
individuals in the State Department, yes, there is 
coordination, and, yes, there is public diplomacy input.
    Senator Hagel. And you feel that you are adequately 
positioned to implement the things that you are talking about, 
as you noted, certainly Secretary Powell wants done and the 
President wants to accomplish. And so your sense, that you have 
all the integration you need to carry out your mission on all 
the policy issues, whether it's Iraq or the Middle East peace 
process.
    Ambassador Tutwiler. Well, I could never say you have 
everything that you need. But I also can say that, in my mind, 
in some respects, they are two different entities. On the one 
is particularly a meeting of formulation of policy. And what is 
the PD component if you do this, if you do that, this will 
cause this reaction. On the other is what I like to call the 
world of deliverables and, hopefully, tangibles that public 
diplomacy should be delivering, whether it is an enunciation in 
someone else's language and culturally sensitive of a policy, 
or it is a book, or it is building a soccer field, or it is our 
Culture Connect Ambassadors we're sending over.
    So, in my mind, they're two very distinct tasks, to be 
honest, and they are, yes, intertwined, but they're different--
they're different taskings in the way, at least, that I have 
always done it.
    Senator Hagel. Thank you.
    Next question. There are interpretations as to how engaged 
this administration is in the Israeli-Palestinian conflict. I 
am a Senator who believes that we should be more engaged. I 
don't think we've been enough engaged. But let's take that for 
a moment and put that aside. And my question is this. If we 
were more engaged, if we were more proactive on that issue, do 
you believe that would be beneficial to our public diplomacy 
efforts in the Arab world and in the Muslim world? If that was 
the perception, which is not there now, as you know, from every 
measurement. In fact, I think it's the core of our entire 
problem that we have in the Middle East.
    And that's obviously debatable. But if we were more 
engaged, from whatever standard or plateau--we are engaged, in 
your opinion or Secretary Powell's--I don't think enough, but I 
don't expect you to say that--but if it was more engagement, 
would that help us accomplish what you are trying to accomplish 
in the minds of the Arab Muslim world?
    Ambassador Tutwiler. Well, you're absolutely correct, 
Senator, that I cannot agree with you. Of course this 
administration is engaged with the President, with Secretary 
Powell, et cetera, et cetera.
    Having said that, I understand what you're asking, and it's 
something that I--not whether we were engaged or not, but the 
policy--that I had to wrestle with, sitting as an American in 
Morocco. And I actually, most sincerely, believe that, to a 
degree, sometimes policies, whatever they are--whether they're 
liked or not liked--are used as excuses in other countries, 
overseas. And I used to say, with all due respect to my Arab 
friends, if the situation that is causing you so much concern 
was resolved this afternoon, peacefully, at 3 o'clock, it would 
not create one job in your country, it would not build one new 
hospital, it would not build one new school. And so what I did, 
in my mind, was, as Ambassador, part of my job was--and I did 
it aggressively--was to articulate and to defend and try to 
explain, in a way that was culturally sensitive to the audience 
of where I was living, our policies.
    And on the other hand, I went out and tried, as 
aggressively, to engage and to listen and to participate and to 
help countries--someone here this morning mentioned the 
moderates and the reformers--to actually make things better in 
their country and to let them know that the United States was 
participating in those activities, as well as the constant 
policy debate, which, you are absolutely right, consumes an 
enormous amount of conversation.
    Senator Hagel. And it's a perception issue, as well. 
Whether you agree with the policy or not----
    Ambassador Tutwiler. Correct.
    Senator Hagel [continuing]. In the minds of the Arabs in 
the Muslim world, either we're engaged, not engaged, and to--
your point is a good one, and you're right--there will always 
be other issues. And that is incumbent upon the leadership of 
those nations to deal with their own internal problems. So I 
understand that.
    Let me ask, before I get cutoff here, Madam Secretary, the 
new television network----
    Ambassador Tutwiler. Right.
    Senator Hagel [continuing]. That you've put together, which 
has gotten a significant amount of attention--here's my 
question. How does Alhurra differ--describe, if you can, the 
differences from previous U.S. Government broadcasting efforts. 
Is it different?
    Ambassador Tutwiler. I can't answer that question for you. 
I don't know of another attempt that the United States 
Government--and maybe it's from ignorance, and I could find 
out--has done to launch a 24/7 television broadcast in another 
language. But, again, it could be my ignorance.
    [The following follow-up response was subsequently 
supplied.]

    It is different. Alhurra is the first U.S.-funded 24/7 satellite TV 
news and information channel. Its programming and approach are based on 
strong market research in the Middle East to determine both audience 
preferences and the most effective way of reaching a region which is, 
at the moment, highly anti-American. Alhurra has drawn almost 
exclusively on private sector expertise both in its staffing and in 
companies it hired to help in research, graphics and branding. One of 
the channel's main goals is to become accepted as an important, 
reliable source of news and information in the very crowded Arab media 
market.

    Ambassador Tutwiler. I can tell you that I've paid close 
attention. I am not responsible--as you know, it's on the BBG, 
but I am very interested in this. It is, again, one of the 
tools that we are using, as we are Radio Sawa and a multitude 
of tools.
    We've all read the initial, in the first week, negative 
regional Arabic press. Well, I have two thoughts on that. No. 
1, they're paying attention, and we are getting a lot of 
conversation about something that we are doing. And, No. 2, if 
you--I started, yesterday, seeing editorials that people were 
sending to me that were actually Arabs questioning Arabs on, 
``What's there to be afraid of?'' I can tell you, third, that, 
unsolicited--some have been negative, but the vast majority 
from individuals living in Iraq and living in countries in the 
region, I've read their e-mails into the television 
headquarters, and they've been very positive and very 
interesting, over, ``Thank you for doing this, America,'' those 
types of things.
    Now, who knows? The jury is out. I personally, as we know, 
believe that it is an effort that we should have probably 
started as a Nation 9 years ago, when Arab broadcasting started 
and there was access to information. We didn't, so we're 
playing catch-up. Not a good position to be in. But I believe 
that it is an effort that is well worth the commitment that the 
Congress has made and that this administration and President 
Bush has made.
    Senator Hagel. Madam Secretary, thank you. And we're glad 
you are doing what you're doing.
    Ambassador Tutwiler. Thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman and 
Senator Biden, for holding this important hearing. And I really 
do feel this is a very important topic.
    I want to thank both Secretary Tutwiler and the private 
witnesses for being here today; in particular, Secretary 
Tutwiler for her manner and approach, which I think is really 
positive and helpful in this area.
    And I'd like to take a minute to stress how important it 
is, as you have done, to improve our public diplomacy efforts. 
I think sometimes it's misunderstood. This isn't about some 
kind of an emotional need on the part of Americans to be liked 
or to bow to global public opinion; this is about our interest. 
It's about the capacity and willingness of others in the world 
to cooperate with the United States at a time when we face 
threats from a global terrorist network, which obviously 
requires, therefore, a global response. This is about American 
power, our power to persuade, to inspire, and to lead. And this 
is about the power of others, and their capacity to distort our 
intentions, to try to paint a picture of an intolerant, 
aggressive, rapacious power that most Americans would not 
recognize and would surely reject.
    So this is, by no means, a marginal issue. It is an 
essential one. And as you've been candid enough to say, when it 
comes to this essential issue the news is not all good. Study 
after study finds that America is losing support and losing 
credibility around the world, and we have to do better.
    Let me follow on the very thoughtful remarks you made that 
just about every member of the committee took note of about 
appealing to non-elites. Let me just put this in slightly 
different terms. Not only should this apply to non-elites 
around the world, but let me suggest that this concern should 
apply to non-elites in our country. We will not succeed if the 
elites in this country are trying to engage the non-elites in 
other countries. In other words, the American people, in 
general, need to be urged--we all need to be urged--to reach 
out to the rest of the world and to get involved in exchanges 
and visitor programs and other opportunities.
    Senator Hagel and I are talking about some of these 
matters. In a way, it's an obvious thing, but, on the other 
hand, when people hear that, they think Peace Corps. Well, 
Peace Corps is a great thing, typically associated with younger 
people. What I'm talking about here is, you know, police 
officers, high school students, farmers, teachers--I mean, how 
do we basically convey to the American people that there's a 
wonderful and essential role for each and every American to 
play in trying to connect with the rest of the world? And I 
don't mean, obviously, only by connecting with those who come 
over here for exchanges, but to take their skills and abilities 
overseas. This is not a call that, as far as I know, Americans 
have ever heard, in our history. It hasn't been necessary. This 
country has been so blessed with our location and our 
resources. But I think things did change in this regard on 
September 11, and I'd like to hear your thoughts on that.
    Ambassador Tutwiler. You, I think, will be pleased with my 
thoughts on this. We actually, right now--there's an existing 
structure that was started shortly after 9/11 that are called 
Culture Ambassadors that actually are what you would expect 
from the arts, the traditional arts. Well, what we're looking 
at right now, and have been, and exploring, is having citizen 
Ambassadors--just as you say, a fireman, a policeman, a nurse, 
a teacher that would be a citizen Ambassador, and ask them to, 
yes, in this instance, go overseas to meet with colleagues from 
their profession. They are not famous people, but they are 
Americans that would enlist that we would enlisted then and 
say, would you please come help us?
    Just yesterday, I was exposed to, which is very 
interesting, a program that started in a college in North 
Carolina, in Greenville--and I apologize I can't pull out of my 
memory the name--where they, on their own--it's a small 
college--have started with four countries--China, Switzerland, 
Gambia, and I can't remember what the fourth one was. They have 
now, open interactive classes, where the college students in 
America get credit, and the stydents in the other country--
Japan was the other one--get credit. And it's very interesting. 
It's high-tech. And basically, with the equipment and the 
training and everything, it's less than $3,000 a class. And I 
just was exposed to this yesterday. I'm going to pursue it.
    And so it is exactly the kind of thinking that you're 
talking about over how do we not just use government officials 
or famous Americans, how do we engage our non-elites, to use 
your phraseology, our normal Americans, in this effort to help 
us. Because we do need everybody's help. Government officials 
cannot do this by themselves.
    Senator Feingold. I'd just follow on, I can't tell you the 
number of people that I meet, who--maybe they've retired fairly 
young----
    Ambassador Tutwiler. Right.
    Senator Feingold [continuing]. From state government, and 
they have a decent pension, and they're certainly not wealthy, 
but they're very eager to do something different. And to 
facilitate ways to use their skills and their wisdom in this 
way seems to be about one of the best things that we could do 
for our country. It seems obvious at one level; on the other 
hand, it's a massive undertaking to try to really facilitate 
people's ability to do these things. And I'm pleased to hear 
your agreement that that's something we should do.
    In the past, our public diplomacy efforts have, to a 
degree, ignored the fact that antagonism toward America is not 
always based on misunderstanding or irrationality, but is 
sometimes based on actual opposition to U.S. policy. At the 
same time, too often our efforts seem to focus on selling or 
delivering a message, rather than a two-way exchange. And I 
strongly believe that the active listening is a valuable show 
of respect for others in and of itself, and we need to do more 
of it--holding meetings, taking questions, making official 
Americans available for dialog and exchange, and for hearing 
people out. I talked with you about this before, and with many 
of your colleagues at the State Department, especially in the 
African Bureau. But I believe it is worth raising again and 
again, because it is not always easy to embrace the really 
difficult options. But in this case, I believe that the really 
difficult option is the most effective and meaningful one. Can 
you tell me what we are doing to listen more today?
    Ambassador Tutwiler. Yes; we actually have, today, in 
place--and I--there's an Under Secretary of State who just did 
this in Brussels for us. He's in the Middle East right now, is 
doing it. We're asking every senior administration official, 
government official from the administration, who travels 
overseas to give us an hour to 2 hours of their time and to do 
exactly that, to go show up at a neighborhood that we 
traditionally have never been in, to go sit in a classroom 
where they're teaching English, and not give a speech, but to 
listen and to engage and to just talk about being an American, 
answer questions about our policy. In so many examples, they 
have never seen an American. And so it is actively something 
that we are encouraging our officials to do, our Ambassadors to 
do, and our State Department and other agency officials who are 
living overseas.
    And one of my jobs is to try to get buy-in to this and to 
convince people of the value to the United States of taking 
time to do exactly what you are suggesting. So we actually are 
trying to do that right now, and are having some initial 
success.
    Senator Feingold. I'm pleased to hear that, and look 
forward to learning more about what's happening on that.
    One final more specific question. What can you tell me 
about the administration's plan to use $1.2 million to support 
public diplomacy initiatives in Djbouti, Ethiopia, Kenya, 
Tanzania, and Uganda, as a part of the East African counter-
terrorism initiative?
    Ambassador Tutwiler. I can't answer that off the top of my 
head, but I'll get you an answer.
    Senator Feingold. If you can get that for me, I'd 
appreciate it Madam Secretary.
    Ambassador Tutwiler. Sure.
    [The following response was subsequently supplied.]

    On January 21, the Department of State notified Congress of its 
intent to use $1.2 million to enhance public diplomacy efforts in five 
target countries in support of the President's East Africa 
Counterterrorism Initiative. The target countries are Djibouti, 
Ethiopia, Kenya, Tanzania and Uganda. Earlier this month, the 
notification of our intent to obligate FY 2003 and prior year Economic 
Support Funds expired without objection, and these funds are now 
available for apportionment and allotment.
    In November 2003, the African Bureau Public Affairs Office met in 
Addis Ababa with Embassy Public Affairs Officers from the target 
countries and military information officers to specify the Public 
Diplomacy tools that would best encourage strong public support for the 
Global War on Terrorism and counter extremist views, both secular and 
religious. Specific components agreed upon and ready for implementation 
now include three broad areas:

  <bullet> Increasing media outreach and information dissemination in 
        East Africa;

  <bullet> Supporting English language and teaching programs in East 
        Africa and providing target audiences with a better 
        understanding of core democratic values, including tolerance;

  <bullet> Conducting exchange and speaker programs on core values of 
        democracy and governance.

    Target audiences will include moderate elites, government, civil 
society, media and youth. We expect funds to be allotted to post by 
midMarch.

    Senator Feingold. And I thank you.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Madam Secretary, welcome. It's been very helpful to hear 
your comments, and I'm glad you're on the job.
    Ambassador Tutwiler. Thank you.
    Senator Alexander. I wanted to underscore a couple of 
things, then ask you a question that's a little bit above my 
pay grade, but may not be much above yours. I want to 
underscore what's been already said about foreign students.
    In my travels around the world, whatever country I'm in, 
it's typical to see a Minister of Agriculture who was at Texas 
A&M, and a Minister of this who was at the University of 
Tennessee. So, in many ways, since World War II our most 
effective diplomacy has been students from other parts of the 
world who have gone to our colleges and universities for a 
whole variety of reasons. So anything we can do to rationalize 
this conflict between security and admission of qualified 
foreign students to our colleges and our universities is in our 
interest.
    Second, I want to underscore and congratulate you on your 
focus on broadcasting. We all agree with this, but I think 
sometimes we even take for granted the importance of 
television. In the world we live in, nothing's important unless 
it's on television, so they say. We see the effect it has, 
disproportionately almost, to Putin's popularity in Russia, on 
our own Presidential primaries. We see what it's done to 
university budgets with college basketball. We really don't 
know how to handle it. And when we get in a region of the world 
where we have an imbalance on television, it's particularly 
devastating. So we can have all the programs we want, but if 
we're not competitive, in terms of what's being seen on 
television, we're really not at the starting gate.
    So I would hope that we--if it takes more money, more 
effort, more television stations, better programming, I would 
hope that would be a first priority, and I'm sure that's 
already well in your mind.
    Here's my question that I was thinking about. I wonder if 
we need a new Bush doctrine about our position in the world and 
how we conduct ourselves. You know, the most visible American 
is our President. We have a Bush doctrine about terrorism, 
which is, in rare cases, ``where we think you might hit us, we 
may hit you first.'' But I wonder if we need one about how we 
act in a world where we have so much power, where our values 
are not always welcome and just to let people know how we're 
going to handle ourselves in this situation.
    For example, I can remember, at the end of the first Bush 
administration, we convened a group of education secretaries, 
and what they all worried about was our culture. They were 
afraid of it and what it might do to their countries. And we 
have the ironic situation of the whole world watching our Super 
Bowl, which, in a way, exemplifies the best of America--we play 
by the rules, everybody competes, anything is possible--and 
then they also watch our halftime, which is a sort of a 
celebration of public indecency. And that's why they're 
throwing television sets out of hotel rooms in countries around 
the world. They don't want that part of our freedom. That's one 
problem.
    Another is, part of our Americanism is to export our 
values, but we have a complex set of values, and not all the 
world wants all those values. And then third, as was mentioned 
here, is, we're the big boy on the block.
    So should our President, at a time like this, construct a 
doctrine that we all say to the world, to say--that somehow 
exercises our strength, but, at the same time, demonstrates our 
ability to show humility and restraint and modesty, even, in a 
time like this. And then, from that doctrine, we might project 
an America in everything we do that is seen as a little bit 
different.
    Ambassador Tutwiler. I don't know the answer to your 
question. I've never given it any thought, to be honest with 
you. It's a really, really good question. I also know, from 
previous service, I would never want to suggest that a 
President or a White House should do something. But I will, 
with your permission, give this some thought and think about 
it.
    I can also totally be in agreement with you over--I think 
that we, as Americans--we go around telling everybody about 
globalization. We're good at that. But have we really absorbed, 
ourselves, globalization? And when you talk about whatever 
program it is, we're proud that it's seen, and we advertise, 
200 countries, 90 countries. But I think that we also need to 
think of what we are beaming to vast populations, who have not 
traveled, who are not educated, who are forming opinions of us. 
And I mean that with respect to all the people who produce our 
product. I'm not in a bashing mode; I'm in a mode--as Senator 
Lugar was saying, we all are trying here, we're all trying to 
figure out how to navigate through this situation.
    But I think that we, as Americans, need, ourselves, to 
remember that we are, and our products are, also going global 
and how people are using that to form opinions of us, and 
sometimes not in the most favorable opinions of us.
    Senator Alexander. And if I may, Mr. Chairman, just say one 
other thing, when Samuel Huntington did his book in the mid 
1990s about the clash of civilizations, what it suggested to me 
was that if we're going to have a clash, at least we should 
understand what our civilization is. And I've found, as I've 
begun to study that, there's quite a bit of disagreement in our 
own country about what it means to be an American, what 
American identity is. We have dropped the teaching of U.S. 
history from many of our courses, we've watered it down in many 
cases, we dropped civics. And for us to be effective citizen 
Ambassadors of what it means to be an American, we have to know 
that ourselves. And so I would think there's an important case 
for a good--for reemphasizing at home who we are and what are 
the principles that unite us as Americans, so we can speak 
about them more accurately to the rest of the world.
    Ambassador Tutwiler. Thank you.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Alexander.
    And we thank you, again, Secretary Tutwiler, for your 
testimony, for your responses. We look forward, as is obvious, 
to working closely with you and probably to having a return 
conversation, in due course, as to how things are proceeding.
    Ambassador Tutwiler. Thank you very, very much, and it's 
good to be with all of you this morning.
    The Chairman. At this stage, the Chair would like to call 
to the witness table, our second panel, Mr. Gene Mater, of The 
Freedom Forum of Arlington, Virginia, Mr. Adam Clayton Powell 
III, visiting professor of Annenberg School of Communication, 
University of Southern California, Los Angeles, California, and 
Mr. Kurt A. Wimmer, of Covington & Burling, in Washington, DC.
    Gentlemen, we're very pleased that you are with us this 
morning. Let me indicate, as I suggested earlier on, that we 
would like to proceed with your testimony. We are checking with 
the Senate floor to see what the vote situation may be at the 
present time. I'm informed that it is likely that a vote may 
occur around 11:10. But then my last prediction was 11, so this 
seems to be moving backward. That gives us, hopefully, time for 
your testimony. We may pause the hearing before coming back for 
questions.
    Each of your statements will be made a part of the record 
in their entirety. I would ask you to summarize, and hopefully 
you could do this in 5, 6, or 7 minutes. That way we will be 
able to hear from all three witnesses before we have an 
interruption. If we don't have an interruption, we will 
continue with our questioning, as we did with the previous 
witness.
    I would like to call upon you to testify in the order I 
introduced you, which would be, first of all, Mr. Mater, then 
Mr. Powell, and then Mr. Wimmer.
    Mr. Mater, we'd be pleased to have your testimony.

         STATEMENT OF GENE P. MATER, THE FREEDOM FORUM

    Mr. Mater. My testimony is more of a statement of why I'm 
here. And I'd like to note that my professional background 
includes a range of print and broadcast experience in the 
United States and abroad.
    My media work began in 1945, in Germany, when I was 
assigned to an Army psychological warfare team that was later 
integrated into military government. In that capacity, I 
started several German newspapers and helped establish the 
post-war German news agency. And 45 years later----
    The Chairman. We're trying to amplify your voice a little 
bit so that everyone can hear.
    Mr. Mater. And I am here as a broadcaster. But not a 
technician.
    Forty-five years later, after working as a reporter and as 
an editor on three U.S. newspapers, working as a newsman in 
Europe, and then holding various management positions at CBS--
once again I was helping to start media outlets, this time in 
Central and Eastern Europe and various parts of the former 
Soviet Union after the fall of communism. Because of this 
experience, I appreciate the opportunity to be here today and 
to share what I have learned.
    As one who believes that a democratic society cannot exist 
without a free press, I suggest that Senator Lugar's proposed 
legislation can go a long way in helping other countries 
achieve what we enjoy.
    I would like to offer two major comments about the thrust 
of the proposal. First, teaching Journalism 101 is necessary, 
but what is equally important is teaching how to run any media 
outlet as a profitable venture to assure sustainability and the 
strength needed to fight efforts at government control.
    And, second, I would urge that the efforts to carry out the 
assigned task be given to U.S. professionals and professional 
organizations, rather than to groups, government agencies, and 
individuals having no media experience of their own.
    Thank you, sir.
    The Chairman. Well, thank you very much, sir. I appreciate 
that civic comment about the business side of this, in addition 
to the content and the importance of that.
    Mr. Powell.

   STATEMENT OF ADAM CLAYTON POWELL III, VISITING PROFESSOR, 
               ANNENBERG SCHOOL OF COMMUNICATION

    Mr. Powell. Thank you, Mr. Chairman and Senator Biden, for 
this invitation to participate in today's hearing on a topic of 
great importance.
    I'd like to, first, follow the example of my former 
colleague, Mr. Mater, and explain why I am here. I am a 
visiting professor and senior fellow at the University of 
Southern California's new Center on Public Diplomacy. It's very 
much a project under construction, and we feel it's an 
important one, for reasons that have been articulated this 
morning by you and others.
    We are studying cultural diplomacy, educational exchanges, 
the full range of soft power as it is practiced, not only by 
the United States, but also by other countries. Clearly, the 
French have a public diplomacy policy. If you go up 
Massachusetts Avenue to the South African Embassy, you'll find 
that that embassy has a Counselor for Public Diplomacy, with a 
very specific portfolio of how to project South African culture 
and education here in the United States. And following the 
example of the Djerejian report and others, we are also 
attempting to devise measurements of effectiveness, something 
which came up earlier this morning, of public diplomacy 
efforts. And, finally, we're looking at some aspects of public 
diplomacy, which, to us, may be obvious, but, when you travel 
to other countries, you find that it becomes something of note.
    The Ambassador from Hungary to the United States, Andras 
Simonyi, just recently gave a briefing at the State Department, 
titled ``How Rock and Roll Helped Lift the Iron Curtain,'' on 
the influence of American music. And we've been combing over 
the data from Radio Sawa, as many have, but we may 
underestimate the influence of Radio Sawa and other American 
international broadcasters, that the music itself may be a 
message.
    The Hungarian Ambassador said that when Marvin Gay sang 
``What's Going On,'' it had lines like ``escalation is not the 
answer,'' that this was--we viewed that as a protest song. In 
Eastern Europe, they thought this was evidence of freedom in 
the United States. So what Britney Spears' lyrics may mean in 
the Arab world may be somewhat different from what we interpret 
them.
    We hope for the better.
    But to turn specifically to today's hearing and to the 
legislation which you have introduced, Mr. Chairman, as the 
University of Southern California's new Center on Public 
Diplomacy focuses on this issue, we feel this proposal could be 
an important contribution to strengthen media, civil society, 
and transparency in all emerging democracies.
    We all know an independent press is essential for a truly 
open and pluralistic democracy. Without independent media, 
governments are, at best, only partially transparent; the rule 
of law, at best, incomplete; and multiparty elections not truly 
open and free. Strengthening independent media remains among 
the most effective and enduring tools for multiparty democracy 
available to us today.
    Independent editors and advocates of free media across the 
globe are asking for assistance in many ways, including 
training programs, assistance with facilities, and expert 
advice on drafting laws and constitutional provisions to 
guarantee free press in their country. It's important to 
respond to these full range of requests, both to address the 
needs identified by leaders of emerging media in different 
parts of the world and to ensure that these emerging media 
possess the means to survive and flourish in often difficult 
and dangerous terrain.
    Many organizations in this country have been providing 
these forms of assistance, including U.S. Government agencies 
such as USAID and Voice of America and other government 
broadcasters, educational institutions across the U.S., and 
non-governmental organizations, including the International 
Center for Foreign Journalists, Committee to Protect 
Journalists, Internews, and others, including The Freedom 
Forum, which is represented here by Mr. Mater. An even larger 
number of organizations based outside the United States, in 
governments and education and NGOs, are also active in this 
area, often with minimal resources.
    In addition to government resources, we've seen support for 
independent media from the Knight Foundation and other 
independent foundations and nonprofit institutions here in the 
United States, from major media organizations, and even from 
individuals. These typically modest investments generate 
significant returns that sustain this value work throughout the 
world.
    Scholars, from Joseph Nye, at Harvard, to my colleague, 
Manual Castells, at USC, have long noted the importance of the 
free flow of information and ideas to a healthy society. And in 
recent years, we've seen examples of courageous independent 
media that make a difference in their country's struggles for 
democracy. Examples from Radio B92, in Serbia, to the Lusaka 
Post, in Zambia.
    B92 and the Post are also examples of how support from 
outside of their countries to promote free media and democratic 
values have worked. When B92 was forced off the air by the 
Serbian Government, assistance came, not only from the Voice of 
America, which stepped in to broadcast its programming, but 
also from the European editors groups, and also the Dutch 
streamed B92 signal on the Internet from a server in Holland. 
And when the Zambian Government closed the Post newspaper and 
threw its editor in jail, protest came not only from the U.S., 
but also from NGOs around the world, especially in Africa and 
Europe.
    These and other cases suggest an approach that can improve 
the effectiveness and the cost effectiveness of any coordinated 
American effort in this area. U.S. assistance, even through the 
National Endowment for Democracy, should be coordinated and 
leveraged with assistance from other countries and from NGOs of 
different nations, and we feel this would be great 
advantageous.
    Thank you, again, Mr. Chairman, for this opportunity.
    [The prepared statement of Mr. Powell follows:]

 Prepared Statement of Adam Clayton Powell III, Visiting Professor and 
             Senior Fellow, USC Center on Public Diplomacy

    Thank you for extending this invitation to us to participate in 
today's hearing on a topic of great importance.
    As the University of Southern California's new Center on Public 
Diplomacy focuses on this issue, we feel this proposal could be an 
important contribution to strengthen media, civil society and 
transparency in emerging democracies.
    We all know an independent press is essential for truly open and 
pluralistic democracy: Without independent media, governments are at 
best only partially transparent, the rule of law is at best incomplete, 
and multi-party elections cannot be truly open and free. Strengthening 
independent media remains among the most effective and enduring tools 
for promoting multiparty democracy available to us today.
    Independent editors and advocates of free media across the globe 
are asking for assistance in many ways, including training programs, 
assistance with facilities and expert advice on drafting laws and 
constitutional provisions that guarantee a free press. It is important 
to respond to the full range of these requests, both to address the 
needs identified by leaders of emerging media in different parts of the 
world and to ensure these emerging media possess the means to survive 
and flourish in often difficult and dangerous terrain.
    Many organizations in this country have been providing these forms 
of assistance, including U.S. government agencies such as AID and Voice 
of America and other government broadcasters, educational institutions 
across the U.S., and non-governmental organizations including the 
International Center for Foreign Journalists, the Committee to Protect 
Journalists, Internews, and others.
    An even larger number of organizations based outside the United 
States, in governments, in education and NGOs, are also active in this 
area, often with minimal resources.
    In addition to government resources, we have seen support for 
independent media from the Knight Foundation and other foundations and 
non-profit institutions, from major media organizations, and even from 
individuals. These typically modest investments generate significant 
returns and sustain this valuable work throughout the world.
    Scholars from Joseph Nye at Harvard to my colleague Manuel Castells 
at USC have long noted the importance of the free flow of information 
and ideas to a healthy society. And in recent years, we have seen 
examples of courageous independent media that made a difference in 
their countries' struggle toward democracy, examples including Radio 
B92 in Serbia and The Lusaka Post in Zambia.
    B92 and The Post are also two of many examples of how support from 
outside their countries helped promote free media and democratic 
values:
    When B92 was forced off the air by the Serbian government, 
assistance came not only from the Voice of America, which stepped in to 
broadcast B92 programming: in addition, European editors' groups came 
forward to support B92, and the Dutch streamed B92's signal onto the 
Internet from a server in Holland. B92 went back on the air, and you 
can also still hear it on the Internet, at www.B92.net
    And when the Zambian government closed The Post and threw its 
editor in jail, protests came not only from the U.S., but also from 
NGOs around the world, especially across Africa and Europe, which took 
up the cause. After international protests, the editor was freed and 
the newspaper was back on the newsstands. And as with B92, you can see 
the Lusaka Post on the Internet every day.
    (A disclosure: these were among the campaigns that were joined by 
the Freedom Forum, where I worked for many years running training 
programs for journalists, media managers and educators in Africa, Asia, 
Central Europe and Latin America.)
    These and other cases suggest an approach that can improve the 
effectiveness--and the cost-effectiveness--of any coordinated American 
effort in this area:
    U.S. assistance, even through the National Endowment for Democracy, 
should to the extent possible be coordinated and leveraged with 
assistance from other countries and from NGOs of different nations.
    This should reap a number of benefits, including:

          A plurality of sources of funding and in-kind assistance will 
        only enhance the credibility of the independent media we seek 
        to encourage,

          Coordination with organizations with similar missions can 
        reduce rivalries and competition that might be 
        counterproductive, and

          Working with other countries and international NGOs can only 
        strengthen the ability of the Endowment to marshal resources to 
        respond fully to the challenges of those who would shutter and 
        control a media longing to be free.

    Thank you once again for this opportunity to participate in today's 
proceeding. We look forward to providing you with any further 
information that you might find of use.

    The Chairman. Thank you very much, Mr. Powell.
    Mr. Wimmer, would you give us your testimony.

        STATEMENT OF KURT A. WIMMER, COVINGTON & BURLING

    Mr. Wimmer. Thank you, Mr. Chairman, Senator Hagel, members 
of the committee. I'm grateful for the honor to appear before 
you today. I've been in hearing rooms like this in Bulgaria, 
Romania, Slovakia, and Russia, but never at home, so it's a 
great day for me. Thank you.
    I am speaking to you today on behalf of The Media 
Institute, a nonprofit foundation, dedicated to the first 
amendment, located here in Washington. I am also privileged to 
be chair of the board of governors of IREX, the International 
Research and Exchanges Board, an NGO that has worked for free 
media in about 15 countries across Europe and Eurasia. I'm also 
speaking for the more than 30 lawyers at Covington & Burling, 
who have been working in about 20 countries on these sorts of 
issues, and from whom I've drawn a lot of the ideas that I'll 
mention today.
    As this committee knows, truly free and independent press 
can really provoke change in new democracies. The press can 
galvanize sustained political reform, it can expose corruption, 
it can promote transparency, it can ensure effective democracy, 
and it can foster an environment in which business can come in 
and invest in transitional economies.
    But the press can't do its job if it's stifled by unfair 
media laws, if it is continued to be subject to unfair libel 
litigation, and if its journalists continue to be jailed and 
assassinated. There's a tremendous amount of work that needs to 
be done to foster true freedom of expression in countries 
outside our borders. And, as Professor Powell pointed out, 
there are a lot of countries and organizations that are 
involved in this.
    From our 10 years of work here, it's clear to me that the 
U.S. really does have a leadership position to maintain in this 
area. No other country holds freedom of expression as a primary 
policy goal in the way the United States does. And we also have 
a history of accomplishing the fostering of independent media 
in a way that's effective and efficient. And I think we can 
continue that and build on it.
    I do think your legislation is a great step forward, and I 
wish it success.
    Let me suggest five modest points that I hope that can be 
central, going forward.
    The first is that current programs really have been 
successful and ought to be continued as new structures are 
considered. As I mentioned before, we've been working in about 
20 countries, and on the ground in 15. In these countries, 
we've seen real change attributable to the work of USAID-
sponsored programs, and real vision in how these are 
administered. We've worked with hardworking, dedicated media 
professionals, in difficult countries, who are committed to 
sustaining independent media. In our experience, these 
professionals really do appreciate the help and leadership of 
the United States.
    Just a few examples. As this committee well knows, 
independent media in Serbia contributed to the will of the 
people in overthrowing the Milosevic regime, which would have 
silenced these media without the assistant of USAID, IREX, and 
others. In numerous cases, repressive media laws would have 
been passed in Central and Eastern Europe had it not been for 
the opinions of U.S. experts that put at least a shadow of a 
doubt behind these proposals and slowed them down. And in 
Bosnia and Kosovo, you now have independent local media for the 
first time. These have been real success stories, and they've 
been achieved at a cost that really must be considered modest 
compared to the more general foreign policy obligations of the 
United States. If we make a wholesale change while these 
programs are midstream, I think we endanger these successes, 
and I hope that they can continue.
    My second point is that our commitment really has to be 
long-term in scope. There are no quick fixes. Fostering truly 
independent media takes time, and reforming a legal system 
requires a true long-term commitment. This committee has been 
precisely right to insist that funding for programs not be 
ended until it can be established that a free, protected, and 
independent media exists in each country. Countries that 
outwardly seem to graduate to more mature legal systems still 
have the need for progressive media laws that fully protect 
freedom of expression.
    One great example, from the headlines today, is Macedonia. 
We've spent a lot of time and effort in Macedonia. We've sent 
teams of lawyers there twice to work on a broadcasting law, to 
work on an information law. During both visits, there were 
hostilities that broke out, which, of course, made me nervous, 
as the person who would put these young lawyers on a plane. But 
there's still so much more that needs to be done. Libel law 
needs to be reformed. Three journalists have been convicted of 
criminal defamation, and have been jailed. But even though 
there's much more to be done, I've learned, just in the past 
couple of days, that the budget has been cut back so 
dramatically that there may not be media programs in Macedonia. 
I think it's a mistake.
    A third goal is public diplomacy and international 
broadcasting. I support that 100 percent. But I do think it 
needs to be separated from fostering independent media. Our 
goal in fostering independent media is to promote a first 
amendment environment in which these media can really voice 
opinions. And sometimes they voice opinions that are critical 
of the U.S. Government. I think that's something that we need 
to live with. And Serbia, again, is a great example of media 
that we helped to sustain being critical of NATO bombing 
efforts, but, nonetheless, accomplishing the goals of the U.S. 
Government in regime change. So I think that was positive.
    Fourth, we really need to fully engage the power of the 
most important media companies in the world--our own. As 
Senator Feingold pointed out, this notion of citizen 
Ambassadors is really important, and we've had a number of 
those. Mr. Mater points out his work. We have teams of 
journalists, teams of producers, going over all the time for 
IREX, Internews and others. But I think if we follow the ideas 
in your legislation, Mr. Chairman, we'll foster an environment 
in which you'll get more and more involvement by the U.S. 
media, and I think that's a very powerful force that can be 
harnessed to make a lot of changes.
    And, finally, I think we need a really effective mechanism 
to measure our progress. And it's clear that we have to stay 
until the job is done, but how on earth can we find that out? 
And I think there are some mechanisms, such as the media 
sustainability index that IREX does that really are useful and 
that can be fostered.
    So I thank you for your attention, and I look forward to 
your questions.
    [The prepared statement of Mr. Wimmer follows:]

       Prepared Statement of Kurt A. Wimmer, Covington & Burling

    Mr. Chairman, Senator Biden and Members of the Committee:
    I am grateful for the great honor and opportunity of appearing 
before you today. The development of free, fair, legally protected and 
self-sustaining media in the developing world is of paramount 
importance to the interests of the United States in the current global 
environment. Because my colleagues and I have worked so hard to help to 
develop free expression in developing democracies, it is both 
gratifying and encouraging to me that this Committee is focusing on 
this issue.

                              INTRODUCTION

    Before I discuss the importance of this issue to our country, let 
me provide the context for my views. I have been a partner in the law 
firm of Covington & Burling, in its Washington and London offices, for 
the past 12 years and a media lawyer for almost 20. In addition, I am 
privileged to chair the First Amendment Advisory Council of the Media 
Institute and the board of governors of the International Research & 
Exchanges Board (IREX).
    In my law practice, I have been able to see firsthand the effect of 
varying international standards of free expression on our U.S. and 
international media clients. I also have been privileged to see the 
dedication and perseverance of journalists in developing democracies 
around the world.\1\ Our media law practice at Covington has been 
providing legal assistance and on-the-ground legal advice to the media 
in developing countries for the past decade in some 20 countries, 
including Serbia, Kosovo, Croatia, Bosnia and Herzegovina, Romania, 
Bulgaria, Albania, Slovakia, Macedonia, Montenegro, Russia, Ukraine, 
Belarus, Georgia, Azerbaijan, the Kyrgyz Republic, Turkey, Indonesia, 
Mongolia and, most recently, Iraq.
---------------------------------------------------------------------------
    \1\ Our clients in this work have included IREX, the ABA Central 
and Eastern European Law Initiative, Internews, the International 
Center for Journalists, the Global Internet Policy Initiative, the 
Stanhope Centre for Communications Policy Research in London, and the 
ABA-United Nations Development Project. Additionally, I was the sole 
American member of the United Nations/OSCE Advisory Group on Defamation 
and Freedom of Information Legislation for Bosnia and Herzegovina, 
which drafted new libel and access laws for Bosnia that now have been 
adopted.
---------------------------------------------------------------------------
             THE NEED FOR U.S. SUPPORT FOR FREE EXPRESSION

    Our work has given me a useful vantage point to assess the 
prospects for change in global free expression. There is no doubt that 
more must be done. Our First Amendment does not reach beyond our 
borders, and no country has legal protections to rival ours. In most of 
the world, the watchdog of the press is muzzled. The media has an 
invaluable role to play in galvanizing sustained political reform, 
exposing corruption, increasing transparency in government, ensuring 
effective democracy and creating an environment in which business will 
have the confidence to invest in transitional economies. The structural 
importance of the press, moreover, cannot be overstated in states torn 
by ethnic factionalism. The press cannot do its job, however, if it is 
subjected to unfair media laws, if it is prevented from having access 
to information, if it is stifled by unfair defamation litigation, and 
if its journalists continue to be jailed and assassinated. Groups and 
governments from around the world are focusing on these issues. But I 
am more convinced than ever that the United States must continue to 
play an essential leadership role for these conditions to improve.
    There is no lack of will, vision or courage on the part 
ofjournalists living under repressive regimes. Members of this 
Committee may recall Slavko Curuvija, the publisher of the Dnevni 
Telegraf in Belgrade, with whom I had the privilege of working in the 
course of our efforts in Serbia. Mr. Curuvija's media outlets had been 
subjected to ruinous fines by the Milosevich regime for expressing 
opinion, on a pretext and without hope of legal challenge. By 1998, it 
was no longer safe for him to publish. But he had found a printer in 
Montenegro and a sympathetic trucking firm that would hide bundles of 
his newsmagazine, Evuropijanin, under shipments of produce. But the 
ultimate act of censorship finally ended this publisher's crusade. On 
April 11, 1999, as he walked home with his wife from Orthodox Easter 
Mass, Slavko Curuvija was assassinated.
    Mr. Curuvija's assassination was not an isolated incident. Just a 
few months before, Zeljko Kopanja, editor of the independent newspaper 
Nezavisne Novine in Bosnia, was the victim of a car bomb--and even 
after losing both legs, he edited his newspaper from his hospital room. 
The Committee to Protect Journalists has reported that at least 263 
journalists have been assassinated in the past decade. And it has been 
going on for as long as there have been conflicts between those in 
authority and those who would criticize authority. My own grandfather, 
a printer in Luxembourg. criticized the Nazi invasion until his presses 
were destroyed by the SS.
    Freedom of speech is far from free. It is purchased by the 
sacrifices of those who risk their all, from John Peter Zenger to 
Katherine Graham. Those who are making these sacrifices in the 
developing world need our help in building effective, independent media 
and media laws that can preserve their freedom and protect their 
speech.
    The question, of course, is how we can best use the scarce 
resources available to accomplish this goal. I applaud the Chairman's 
leadership in this area and suggest that this Committee bear in mind 
the following principles that the more than 30 lawyers involved in our 
team at Covington & Burling have drawn from our work overseas:
  <bullet> Current programs are effective, economical and must be 
        continued even as new structures are considered.
    We have worked in 20 developing countries, with Covington lawyers 
on the ground in 15. Our team has seen real change attributable to the 
work of USAID-supported programs. We have worked with dedicated, hard-
working media professionals who are committed to provoking positive 
change and who truly appreciate the help and leadership of the United 
States.
    The results of the work supported by USAID have been tangible and 
real. Independent media in Serbia contributed to the will of the people 
overcoming the Milosevich regime, and this regime would have silenced 
these media without the brilliant technical assistance of the United 
States. Repressive media laws would have been passed in multiple 
Central and Eastern European states had it not been for the opinions of 
American legal experts that raised significant doubts about the 
consistency of these schemes with European and international legal 
norms. Our opinion on the draconian Serbian ``Law on Public 
Information'' was translated into several languages and distributed 
broadly to those attempting to oppose it. Independent media in Bosnia 
and Kosovo are truly local and becoming self-sustaining. New access to 
information laws have been passed throughout the region, particularly 
in Georgia and Bosnia, because of the help of United States experts. 
The evidence in the region is staggering. And it has been achieved at a 
cost that must be considered modest in comparison to the more general 
foreign policy obligations of the United States.
    If a wholesale change in these sustaining programs is made while 
they are in mid-stream, their ability to continue to make progress will 
be jeopardized. Current methods and levels of funding must continue as 
we consider how to improve the overall scope of our efforts. 
Consistency is of paramount importance in this field, and we cannot 
afford to endanger the momentum that these programs have attained over 
years of hard work.
  <bullet> Our commitment must be long-term in scope
    Our experience has shown that there really are no quick fixes, 
particularly in the area of free expression and independent media. We 
must make it clear to the world community that our commitment to these 
goals is long-term and sustaining, that our attention will be focused 
closely on the countries in which we are working, and that will stay 
until our goals are attained. This commitment is essential from the 
moment we begin working--an investment in serious media change, and the 
credibility necessary to have a place at the table for legislative and 
legal developments, requires a long view.
    This Committee was precisely right to insist that funding for 
programs in countries in process not be ended until it can be 
established that a free, protected and independent media exists in each 
of these countries. We have seen, over and over, the need for sustained 
legal intervention and assistance. Countries that outwardly seem to 
``graduate'' to more mature legal systems nonetheless continue to have 
needs for progressive media laws that are in accordance with 
international legal norms. In one country, for example, we opposed 
unjust laws until the government changed, and then were privileged to 
work on the ground with local experts to create new media laws. But 
regressive elements, including prior restraints, crept back into those 
laws, and we now have been asked once again to work with local 
journalists on strategies for dealing with harsh laws. Although the 
harsh regime is gone, the need for real legal help remains. We must 
continue our vigilance to ensure against backsliding, which has been 
all too commonplace in our experience.
    The typical trajectory of legal structures necessary for a free 
press demonstrates the need for long-term involvement. First, there is 
the basic and obvious need for free expression, equitable distribution 
of broadcast licenses and allocation of spectrum. Second, it is 
essential that defamation reform be accomplished, and this is an area 
where much remains to be done in virtually all of the countries in 
which we have worked--libel suits by public officials, often criminal 
in scope, remain a danger across Europe, and independence of courts is 
an essential but challenging element in reform. Third, freedom of 
access to information must be assured. This is a long-term project--it 
cannot be accomplished by mere passage of a Freedom of Information law, 
but by changing the hearts and minds of judges and bureaucrats who 
control information flow. Fourth, press freedoms must be assured in all 
media, particularly the Internet. Damaging new media laws continue to 
be proposed in countries across Europe that must be opposed.
    If we assume we have done our job after the first, most 
preliminary, step, we have done little to truly establish independent 
media. We must sustain our efforts and assist in the creation of a 
truly workable legal system. The amount of work is formidable--for 
example, the Stability Pact for South Eastern Europe published in 
January 2004 a summary of proposed media legislation in 10 countries 
that runs to 22 single-spaced pages. Without U.S. assistance, many of 
these laws will be passed in forms that will not protect free 
expression and foster independent media. Given the amount of work that 
has gone into the region, this would be a tragedy.
  <bullet> Our work must be clearly separated from short-term policy 
        goals and political influence
    Public diplomacy and international broadcasting are important 
complements to fostering freedom of expression and independent media, 
but they should maintain their separate character. I take second chair 
to no one in my support and admiration for Radio Free Europe/Radio 
Liberty, and have been privileged to do some work for it. Its work is 
essential in providing an independent voice in parts of the world that 
have little access to independence in their local media. And it is of 
course important for public diplomacy efforts to ensure that the views 
of the United States are heard in the developing world.
    But this is not identical to the goal of fostering independent 
media. Our efforts to build a truly free press must be separate from 
any appearance of content or political influence. We must have the 
courage to build a press that is so independent that it can criticize 
us. Again, Serbia provides an apt example. The same independent media 
that gave voice to opposition to the Milosevich government were also 
harsh critics of the NATO bombing campaign and, in some cases, U.S. 
policy. Yet, the voicing of opinions with which we would not agree is 
not a failure--it is a measure of our success. A commitment to 
fostering true independence requires respect for the value of the First 
Amendment, and acceptance of criticism is at the heart of this value.
    I am not an expert on government mechanisms in all three of these 
areas. But I do worry that a single office overseeing all three will be 
seen as muddling the firewalls that must exist between them and 
undermine our credibility in attempting to establish a free and 
independent press.
  <bullet> In this effort, we must fully engage the power of the most 
        important media in the world--our own
    The United States media is, to be sure, involved in current efforts 
overseas. IREX, for example, has sent consultants and trainers from 
CNN, The New York Times, the Wall Street Journal, ABC and other media 
companies into the region. But we have not tapped the full potential of 
our world-leading media in fostering free speech and independent media 
in the developing world.
    Our timing is right in involving the media more comprehensively, 
because U.S. media is cognizant of the need for freedom of expression 
internationally more comprehensively today than ever. The Internet, as 
well as increasing international newsgathering efforts, have 
illustrated the decreasing size of the journalistic world in graphic 
terms. Consider:

  <bullet> Barrons Magazine has a handful of Web subscriptions in 
        Australia. The Australian High Court has forced its owner, 
        American publisher Dow Jones, to defend a libel case under 
        strict liability that would never be permissible under the 
        First Amendment simply because Barrons is available on the 
        Internet.

  <bullet> Andrew Meldrum, an American journalist working for the 
        Guardian, a London newspaper, was prosecuted in Zimbabwe for 
        publishing statement claimed to be inaccurate under an 
        ``information law'' that clearly violates international legal 
        standards. He was prosecuted in Zimbabwe even though the 
        Guardian does not publish there simply because a prosecutor 
        managed to access it via the Internet.

  <bullet> Until a federal court in California applied the First 
        Amendment to stop it, Yahoo.com was under orders from a French 
        court to stop publishing information relating to Nazi speech to 
        any country, even though that speech was clearly protected by 
        the U.S. Constitution--despite Yahoo's full compliance with 
        restrictive French hate-speech laws on its Yahoo.fr site.

  <bullet> In November, the Council of Europe approved an addition 
        protocol to the Cybercrime Convention, under which signatories 
        will be required to outlaw ``any written material, any image or 
        any other representation of ideas or theories, which advocates, 
        promotes or incites hatred, discrimination or violence against 
        any individual or group of individuals, based on race.'' So 
        far, 20 countries have ratified it.

    A new battle is being waged. It is no longer a battle in which our 
federal courts can be a dependable refuge for our media companies, no 
longer a battle where Congress can be relied upon to pass laws such as 
those that protect U.S. newsrooms from searches. The media of the 
United States are engaged in this battle. Given proper involvement, I 
believe they will engage directly in our efforts to foster free 
expression overseas.
    The key, of course, will be to find an effective mechanism to 
engage the media fully. Existing avenues, such as drawing on the media 
to provide training and support, will of course continue. But 
considering new mechanisms to engage the media is certainly 
appropriate.
    U.S. media can be tapped for substantive assistance. Our media has 
long been involved internationally--for example, the Washington Post 
helped to establish precedent for a reporter's privilege not to be 
forced to testify about war crimes in the International Court in the 
Hague, and the Associated Press and others have filed amicus briefs in 
cases in Croatia and elsewhere. Our media also are focusing 
increasingly on international standards as they struggle with Internet 
jurisdiction over libel cases and difficult privacy issues arising from 
Europe and elsewhere. But if existing media organizations can be tapped 
to be fully engaged strategically and across the board, significant 
resources could be brought to bear on problems in developing countries 
with an energy and focus that we have not yet seen. This could truly 
move the project forward, and I applaud the Chairman's efforts to 
explore initiatives that could accomplish this goal.
    In this effort, it may be worthwhile to consider tax incentives for 
U.S. media companies, entertainment companies and sports leagues to 
contribute highly demanded American content to broadcasters in emerging 
democracies.\2\ Among the most important elements of ensuring 
independence in media is sustainability, and compelling programming is 
an essential element of building a brand and maintaining an advertising 
base. If U.S. companies can be provided incentives for distributing 
highly demanded programming, it could make a real difference.
---------------------------------------------------------------------------
    \2\ For full disclosure, I should point out that Covington & 
Burling represents numerous media companies and sports leagues.
---------------------------------------------------------------------------
  <bullet> Our work, and its ultimate success, should be judged by a 

        RIGOROUS ASSESSMENT OF MEDIA INDEPENDENCE AND FREEDOM

    There is a need for a system to measure, to the extent possible, 
our success in fostering independent media and a free press. The Media 
Sustainability Index (www.irex.org/msi), which provides a rigorous 
assessment of media development in 20 countries in Europe and Eurasia, 
strikes me as having established the right analysis. The MSI measures 
progress along a five-point scale, using evidence drawn from extensive 
field work in each country--free speech protected by laws, regulations 
and cultural norms; professional journalism that is balanced, fair and 
ethical; a plurality of news sources available to citizens; ethical and 
profitable management and independent media; and institutions 
supporting media professionalism and independence. These indices 
provide a valuable analysis of where we are in each country, and they 
provide a system of measurement that could be straightforwardly 
extended to additional countries and regions.
    Any serious effort to establish a goal demands a concomitant 
commitment to measuring whether that goal has been met. Analyses such 
as the MSI will be an essential component going forward to ensure that 
we do not end our involvement prematurely.
    Once again, I appreciate the opportunity to share these ideas with 
you. I would be pleased to address any questions you might have.

    The Chairman. Thank you very much, Mr. Wimmer.
    Let me state the situation. The rollcall vote has 
commenced, and I think that we will have a recess of 10 
minutes, wherein Senators can vote, and you will not have your 
questions and answers interrupted. So if you can be patient for 
that period, we'll return. I'm advised we'll not have a second 
vote; there will be just the single vote. That is good news and 
may give us, then, opportunities for extensive questioning and 
dialog.
    Is that acceptable to Senator Biden?
    Senator Biden. Oh, absolutely.
    The Chairman. Very well. The committee will recess for 10 
minutes, or whatever time that Senator Biden and I require to 
get our votes cast, and we'll be back.
    Thank you.
    [Recess.]
    The Chairman. The hearing is called to order again.
    Let me ask--Mr. Wimmer, you have mentioned IREX. Would you, 
for the benefit of both the committee as well as those watching 
this hearing, describe more about that organization? Because it 
has, as you mentioned, been active in 15 countries. But what 
happens? Who are the people in IREX, and what do they do?
    Mr. Wimmer. Thank you very much, I'd be pleased to.
    IREX has a number of different functions. Of course, as the 
name implies, it does a lot of educational exchanges, and 
that's a part of the organization about which I'm learning 
more.
    The Chairman. What do the four letters stand for?
    Mr. Wimmer. International Research and Exchanges Board.
    The Chairman. Great.
    Mr. Wimmer. So, historically, it was set up many, many 
years ago, during the Soviet Union days, and did a number of 
exchanges with the Soviet Union, mostly university age and 
professors. It has expanded dramatically into Central and 
Eastern Europe and Eurasia, and is now expanding into the 
Middle East and doing exchanges, as well. But they also operate 
the Pro-Media Program, which works in about 15 countries to 
foster independent media. And what that program does--it's a 
USAID-supported program--it goes in, sets up centers that are 
in the country, and works with journalists and media companies 
there to just provide assistance. And they will help train 
camera people, advertising sales, promotion, production, 
everything so that the media can become self-sustaining. So it 
really isn't public diplomacy or international broadcasting, in 
terms of getting our viewpoint across, but it is helping to 
sustain media. And we get involved when there are media laws 
proposed, and we hear about that through the field offices.
    The Chairman. Well, as you've correctly identified, one of 
the purposes of the legislation that I've offered and that has 
been supported by Senator Biden and Senator Hagel, my 
colleagues here this morning, is to build the institution of 
the media, recognizing that there may be people writing in 
papers or on broadcasts who are averse to many of our points of 
view. We are trying to think ahead, through the vehicle of the 
National Endowment for Democracy. We've chosen that because it 
has 20 years of a good track record, election observations, and 
institution-building. Sometimes you can't transfer these 
skills, in terms of political organization or governance, to 
the media. This is going to require some thoughtfulness by 
veterans of the trail, such as the three of you, as to how this 
proceeds. As you've suggested, that if American media are to 
become more active, as organizations in the area, this 
intersects with this attempt to bring about the training or the 
building of indigenous forces in each of the countries.
    I wanted to outline, for the moment, the IREX experience, 
because people have been doing some of this already. This is 
not rediscovery today. The question is how to augment those 
efforts in a much more comprehensive way as a part of a global 
program.
    Mr. Powell, I'm encouraged by your description of the 
program that you head. How many people are involved in this? 
How popular is the subject? Do you have folks coming to your 
university for the purpose, really, of engaging in public 
diplomacy?
    Mr. Powell. This is a very new center. The planning began 
in September, with both the USC School of International 
Relations and the Annenberg School for Communication, We're 
drawing on, as you can imagine, many other resources----
    The Chairman. Yes.
    Mr. Powell [continuing]. On campus. Word is spreading 
quickly among the grad students that this is a field that they 
should be getting into. Our first courses will be offered in 
the fall, and we're finding we have to cap them because the 
interest is that great. So there is a recognition among--not 
only among the faculty and among visiting scholars who will be 
joining us, but, perhaps most gratifyingly, among the students, 
that this is a field of great importance, and a field where 
they will want to build not only the scholarship, but their 
life's work. And so this is a growing area, and, for that and 
many other reasons, your initiative is most timely.
    The Chairman. This may be a reach, because you say it's a 
new school, but over half of the students at engineering 
universities around our country, we hear, at least in frequent 
testimony, come from abroad. There is a yearning by American 
industry that more Americans might take engineering, that this 
would be helpful, maybe, in terms of building jobs here. 
Nevertheless, huge numbers of students, and a majority in many 
of the engineering schools, I'm just curious, down the trail, 
is it likely that students from abroad will come to study 
public diplomacy? Maybe they come now to study journalism. This 
would be an interesting inquiry. In other words, how well are 
we doing in that field already, given the exchange programs you 
talked about generally, specifically? Do you have any view on 
that?
    Mr. Powell. Well, the University of Southern California 
already has, we believe, more international students--students 
from outside the U.S. than any other university, and the Center 
of Public Diplomacy is actually already receiving applications 
from students outside the United States who want to come and 
study, not only public diplomacy as practiced--history and 
practice here in the United States, but also how it's practiced 
across the world to try to improve their own countries' efforts 
in this area.
    The Chairman. Mr. Mater, earlier on you made the comment--
and I commended the comment--about the business aspects of 
this. What, ideally, should the National Endowment for 
Democracy or the universities, as you've been listening to 
this, or IREX, for example, do on the business side? Obviously, 
sustaining these enterprises is of the essence. Because a lot 
of people are going back and forth to Iraq now, to Baghdad, 
there has been flourishing of new papers, new communications. 
It is not really clear how these all sustain themselves, but 
probably it is clear that some will not sustain themselves very 
long. As a practical point of advice, how do you gain this 
other part of the picture, after you have your message, to 
finance how you do it, to hire other people to help you sustain 
the circulation and distribution of what you're going to do?
    Mr. Mater. I think that really there are two ways. One is 
actually to do workshops abroad in which the business side of 
the newspapers----
    The Chairman. To hold seminars frankly devoted to that 
subject.
    Mr. Mater. This is how we do it. However, perhaps even 
better than that are exchange programs. You were talking 
earlier about American media. In the case of Indiana--I do know 
some of the media people, the Schurz family, for example.
    The Chairman. Yes.
    Mr. Mater. But as perhaps a typical and good example, 
there's a woman I know, who runs a television station in 
Evansville, Indiana, and I paired her and her station with a 
station in Ukraine. And there were exchanges where the top 
three or four or five people from the station in Ukraine came 
to Indiana, spent time at the station and actually learned, How 
do you sell advertising? How do you price advertising? How do 
you get involved with the community? It's more than just 
business. Community service is a big thing in broadcasting in 
this country, and it was imparted to those people, as well.
    People from Indiana went over to the town in Ukraine, 
roughly the same size as Evansville, talking about the same 
size audience. It would be wrong, for example, to take people 
from a small town in Ukraine, and ship them to New York or to 
Washington. Washington, being even the eighth largest market, 
is far bigger than some of the places that I've dealt with. So 
bringing them to a comparable-sized market worked out very 
well.
    I haven't heard from the Ukrainians, but Lucy Himstedt, who 
runs WFIE-TV in Evansville, has been in touch with me, and Lucy 
tells me how successful the exchange has been. So it works 
even, the pairing of stations in Indiana and Ukraine, but it 
worked. So that's another way of doing it.
    The Chairman. I would say you would, with Hoosiers, 
probably enjoy an appropriate pairing. But, nevertheless, I 
think, you know, the point you make is an excellent one. The 
size and the scope has to be thought of----
    Mr. Mater. That's right.
    The Chairman [continuing]. As opposed to throwing somebody 
into another milieu just for general knowledge, because by the 
time you get to the nitty-gritty of how to make a living at 
this, why, the scope is a very important aspect of that.
    Mr. Mater. Yes, that's true. In the case of radio, they 
have to understand the concepts that we have developed in this 
country, such as audience flow and so on, and knowing who 
you're dealing with. This is a major aspect of what we do in 
this country, the research and the like of that, so we know who 
we're serving. People over there generally don't, and it's a 
matter of teaching them.
    The Chairman. I've waited for the expertise of this panel 
to pose this question. In August, I was privileged to visit 
Uzbekistan. It was my first visit to that country. And 
President Karimov heard that I was coming, essentially, really 
to take a look at what had been the Soviet Union's either 
biological or chemical warfare laboratories that, under the 
Nunn-Lugar Act, we were trying to convert, and that ostensibly 
had been converted. We were going to inspect whether there were 
now scientists doing good things in these places. In any event, 
before we ever got to the laboratories, President Karimov 
appropriated my trip, and insisted that I accompany him in his 
aircraft, the Samarkand, which was a wonderful experience, 
historically. Yet his purpose was to have 6 hours of 
conversation, and much of it was the President's side of the 
conversation, attempting to talk about human rights, talk about 
criticism by the United States of his regime and of him 
personally, and so forth.
    I did not make a brief for the President in response to 
whatever he had to say. One interesting thing that he did have 
to say was that the American message was not being heard; the 
Russian message is being heard. So I said, Well, how is this 
happening?' And he said, Well, through radio stations, 
essentially. Many people in Uzbekistan listen to the radio. 
They're beyond the purview of television at this point, 
although maybe not forever. He was suggesting that I ought to 
go back, if I were serious about getting the United States 
message there, and insist that maybe 300 large towers be 
constructed, that, at least in his vision, would transmit 
signals all the way from the United States. If necessary, we 
could have them tune into our programming. In any event, if we 
wanted to do something out at the capital city of Tashkent, 
why, it could be picked up at least universally within the 
country. It was an interesting suggestion, and I've tried it on 
for size with people in our television electronic markets. They 
all find it intriguing, but don't really know what to make of 
this.
    Let me just ask you--just thinking of Uzbekistan as a case 
in point, a country in which the President says--unlike most of 
the countries polled by the Pew Foundation, or others--at least 
anecdotally, there appears to be a majority of people who have 
a pro feeling toward the United States. So you start with that 
basis. On the other hand, there is not much to sustain that, 
maybe aside from the pronouncements of the President, himself. 
Of course, there's some criticism of suppression of other 
points of view or the media. How do you open this up? Are there 
technical means to skip over some of the transition stages? Are 
300 towers needed? What about the idea of these relay towers or 
towers that are big enough to pick up signals even from the 
United States? Is this a practical suggestion? If not, how 
should we begin on the ground in Uzbekistan?
    Any of you have a thought?
    Mr. Powell. Well, if I can take a stab at this.
    The Chairman. Yes.
    Mr. Powell. What we're moving toward--and this may be a bit 
in the future--what we're moving toward, in Uzbekistan and 
everywhere else, is leapfrogging much of the technology that we 
grew up with. Radio is still important in much of the world, as 
in Uzbekistan, and certainly VOA and other international 
broadcasters are active on the radio front. What we've found to 
be extremely cost effective, for very limited resources, in 
much of the world, including Asia and Africa and Central 
Europe, is to take America's message, stated indirectly, 
through the coverage by free media in the United States and by 
NGOs in the United States, and place the audio on the Internet. 
You find that this attracts an audience in places that we had 
not anticipated.
    When I was Gene Mater's colleague at The Freedom Forum, we 
began something called ``free radio,'' which as an Internet 
radio service, audio files and streaming services placed on the 
Internet. Anyone could download it. And the only way we found 
out that--well, the first way that we found out that people 
were using is, we'd start to get e-mail from Serbia or from 
South Africa, saying, oh, we're hearing your programs on 
independent radio station, or on a station in Sarajevo that 
suddenly started using a 1-hour weekly magazine that we were 
producing issues about free press. So there is a technology 
which costs very little, very cost effective, and could be 
picked up by anyone who was interested.
    Now, that doesn't address the language issue, and it 
doesn't address the issue of actually getting it onto a dial 
that someone on a small radio can tune to. But there are these 
kinds of technologies that are out there which don't require a 
huge investment.
    Also, in much of the world, as you know, satellite-
delivered radio and television are becoming important. 
Satellite radio is something which is fairly new here, with XM 
and serious radio offering commercial services. But in some of 
the world, that's an important way of reaching at least elites, 
and through elites sometimes you can get the word out in a very 
timely fashion.
    Mr. Mater. I might just add to that. Technology is what 
does it all, in the sense that--when we started RIAS, my 
colleagues then in Berlin started RIAS in February 1946 to 
counter what was then the Soviet control of all radio in 
Berlin--we started it as what was then called wired radio, 
which went over telephone lines. And then to reach a broader 
audience, we went over the air. And then we went beyond that, 
because we wanted to serve more than Berlin. We used repeater 
stations that could carry the signal into the Soviet zone of 
Germany. It can be done as you say, but--and RFE has tried to 
have their broadcast carried locally. It doesn't always work 
but it is important.
    Mr. Wimmer. Mr. Chairman, if I could add, I agree with 
everything that's been said. There have been a couple of times 
when the, sort of, analog to the 300-foot tower has been tried. 
The most successful, of course, was Serbia--Project Pebble, I 
believe it was called by USAID, which sent B92 back in. And 
we've seen that sometimes in Croatia, Bosnia, where it's not 
necessarily a government attempt, but a private broadcaster in 
one country puts up a big tower to try to reach populations in 
another.
    I really like Professor Powell's idea of using technology 
rather than building these cross-border broadcasting 
facilities, which do raise international law issues. But the 
Internet's a great example, if it can be a sort of a business-
to-business approach where the end result is something that's 
available to a broadcaster in Uzbekistan by the Internet that 
can be broadcast. Because really the Internet connectivity in 
Uzbekistan and most of the countries there is so poor that 
having something streamed in hopes that consumers will pick it 
up is pretty futile at this point. But if it can be available 
to broadcasters, who would then put it on the air--I mean, 
radio is such an important medium of communications in Eurasia, 
that I think that's clearly workable. And I'm always amazed, 
when I travel to the region, how many satellite dishes you see, 
so I think that's also something else that can be explored. 
It's even better than a 300-foot tower; it's quite a large one.
    The Chairman. Just listening to your testimony, it occurs 
to me that perhaps the students--maybe students from 
Uzbekistan, to use this case in point--would come to the United 
States. You try to work with them on the content, on the 
principles, on the values, but also on technical aspects. My 
guess is, while there are students at Southern California in 
the next year or so, in this country, the way in which 
television is delivered to many homes in our country can really 
change very markedly. This is a large debate going on, this 
bundling of services or consolidation, the discussions of how 
all that happens. Perhaps the students would be better able to 
interpret, on the ground in their home countries, what is 
doable, if they have the capital and the backing to do this. 
this reinforces again that the longevity of the project depends 
upon finance there, as well as assistance we can give.
    This goes well beyond the budgetary debates that we're 
having now. As you said, Mr. Wimmer, in one of your four 
points, we have to be very thoughtful about cutting back 
successful things we are doing now, even as we become 
innovative and reach out, with the NED or with others, for that 
matter.
    Let me ask this question, because it poses a difficult 
problem for our diplomats, quite apart from the issues of 
journalism. With the fall of the former Soviet Union and the 
coming of a new Russia, President Bush, the first President 
Bush, introduced the Freedom Support Act. Robert Strauss was 
named as our Ambassador to Russia with a whole portfolio of 
potential reforms that we thought would be helpful for a new 
Russia. They included much more of an emphasis on contracts, 
property rights, rule of law, court systems that handle these 
sorts of things. His priorities were pretty heavy on freedom of 
expression and the need for free media and all that accompanies 
that. A lot occurred in Russia. From time to time, a lot was 
wound up and didn't work. At the same time, in the current 
situation, one of the major criticisms of President Putin is 
that one by one the television media have either gone out of 
business or have been appropriated by the President or by his 
followers so that something less than free expression seems to 
be the case. That is true of some other elements of the media. 
Here we have a situation in which a lot of Russians have come 
to study in the United States, or have engaged with some of 
you, as professionals, as to ``how do we do it,'' and some were 
doing it very well.
    I can remember, before one television station was closed, 
they asked me to make an appearance, which I did, just as a 
show of what I felt was important about what they were doing. 
As I was being interviewed, it was interminable because they 
had no other programming, I think, that evening.
    They were rushing around anticipating somebody might come 
after them that evening in, sort of, a touch-and-go situation, 
which is too bad. This occurs not just in Russia, but also with 
other regimes as they come and go.
    How do we handle this, in terms of our public diplomacy? 
Here, you're beyond just a rudimentary training of people. Some 
of the financing, allegedly, of the television stations came 
from the so-called oligarchies, or people who had become very 
wealthy. That's a long debate itself, as to how they gained 
their wealth, and the legitimacy of that, and their status. 
Nevertheless, it is pretty well financed. It was one reason 
that they made a lot of headway rather rapidly.
    Now, do any of you have any comment as we get really into 
public diplomacy and its longevity, its sustainability? How do 
we handle those situations? Do we offer a refugee haven for 
better days? Do we, through our own diplomacy at the highest 
levels, make known how important we believe this is as a major 
point of foreign policy? Do any of you have any comment on this 
scene?
    Mr. Powell. All of the above, Mr. Chairman. And it was 
interesting to see President Bush making some remarks about 
Tunisia in this respect, which was quite important. But among 
the many tools at our disposal, if I could cite an example of 
something which we did at The Freedom Forum for years, was to 
go to a country--Peru, Russia, Zambia, Ghana, a country which 
is going to have elections maybe 6 months or 3 months down the 
road--and hold seminars and training sessions on the ground in 
the country with experts from the United States--some of our 
former colleagues from CBS News, from other U.S. news 
organizations--to reinforce, among the editors and others--
educators, regional indigenous NGOs and others--what they have 
at their disposal within the scope of their resources to fight 
for their independence. And that's everything from--in Peru, 
where Fujimori, at the time, controlled almost all the 
newspapers and almost all of television and radio. We showed 
them various ways of--whether through e-mailing of files, 
through regular monitoring of the things we take for granted, 
the New York Times Web site or the Washington Post Web site, 
that they could--and you don't have to--even just have to say 
it in these terms, because they understand immediately, Ah, 
this is something the government can't stop. This is something 
that is not subject to the censorship in Lima or Moscow or 
Lusaka, wherever. You see a hunger for these kinds of 
resources, and a willingness on the part of many courageous 
people to use them at a time which is most critical, when 
they're either at the beginning of or at the height of an 
election campaign. We've found that to be a very, very well-
received set of programs, and a set of programs where--which 
were requested by journalists in many countries. And within our 
resources, we could do--in my department, I could do about one 
a month. So--still, it's 12 countries a year, so you go all 
around the world. And we saw, from anecdotal evidence, a great 
positive benefit from that.
    Mr. Mater. I would just add a point or two. I meet with 
many foreign journalists who come to this country--are brought 
in by our tax dollars, as a matter of fact. I think it's next 
week that I meet with a number of Arab journalists, for 
example. I know there are some Africans the week after that. 
And in spite of all their problems, I do tell them that 
democracy is not easy, and how we fight for it in this country.
    I think it's going to take time, but I do think it is 
important to meet with these people to show the difference 
between what they're seeing in their own countries and how we 
practice journalism in this country. For better or for worse, 
we practice it one way, but in many of the other countries, 
there isn't journalism as we know it; certainly not in China, 
for example.
    But we do meet with them. I meet with them on a regular 
basis. They're inquisitive about how to do things. And maybe, 
little by little, it'll take another generation, but something 
more will happen. It will happen in Russia, as well, I think, 
in spite of what's happened to the broadcast structure.
    But it's a time-taking problem that will take awhile before 
it is licked. I don't think we can pressure Russia into 
suddenly creating independent television. There are some 
independent radio stations. And the newspapers are not doing 
all that badly, although there is pressure. The former Soviet 
Union--in fact, all the countries in the former Soviet bloc, 
have a concept of what they call ``paid advertising'' which is 
really buying stories. You can get into the newspaper anytime 
you want to. It's a different atmosphere. But, little by 
little, we're working on it.
    Mr. Wimmer. I really agree completely with that, Mr. 
Chairman. The time that it takes to make these changes is huge. 
Russia's a great example of a very mature country that still 
has great needs, I think, both for journalism training, because 
of the tradition of advocacy journalism and the lack of balance 
in many news outlets, but also real need for media law support. 
And I know the media lawyers that are active in Russia, and 
there are perhaps a half dozen that are really active, and it's 
an enormous country. And they definitely need help. And there 
are, you know, any number of proposals that could do 
significant damage if they were adopted that one reads about, 
and a few of them that we've worked on. So I think that 
continues to be important.
    But I think you're exactly right to say that we also need 
to look at this as a political matter and as part of our 
bilateral negotiations with countries such as Russia. For many 
of the countries that we go to, all we can do is use moral 
suasion and say, free expression is good. You should change 
this in your law because of the following reasons. There are 
many more tools in the briefcase of a diplomat who goes over to 
negotiate. And I think it would be important.
    Mr. Mater. I might just correct something I said. I 
referred to ``paid advertising.'' It's called ``hidden 
advertising'' or ``paid editorial.''
    The Chairman. Hidden.
    Mr. Mater [continuing]. Which is more direct. Every time I 
meet with Russian or Georgian journalists, or whatever country 
they happen to be from, and I bring it up, they say, ``Oh, yes, 
it's still going on.'' Hidden advertising. Indeed, a public 
relations organization in Moscow, about 3 years ago, actually 
did a survey and went to the various newspapers and said, ``How 
much does it cost for 500 words?'' They all have a price list. 
It's easy. You can get into the newspapers anytime you want to 
if you pay for it, which is a very unfortunate aspect of the 
business. They say they have to do it because they need the 
money.
    The Chairman. There's one other scene that I wanted to 
bring before you, just for your comment today. Just during the 
period of time I've served on this committee in the Senate, 
there has been a sea change in terms of governments that want 
to interact with our government. And so, as a result, maybe the 
chief executive, the president, or the king, or whoever, comes 
to the United States and seeks, usually through our Ambassador 
in that country, an audience with the President of the United 
States. And the President's time is not unlimited. And so, as a 
result, the competition for these audiences and meetings is 
substantial. But, in any event, many succeed because it's in 
our interest, their interest, for these meetings to occur.
    Now, in the past, sometimes that was it. Occasionally, the 
itinerary of the chief executive might be extended to find the 
Secretary of State, if he was available, and visit the State 
Department; and then, in more recent times, maybe even to find 
the Secretary of Defense or the National Security Council 
Director.
    But, in due course, many Ambassadors here on the ground in 
Washington have advised the chief executive that he ought to 
have a go at the Congress. It is a much more murky subject as 
to how you do that, how you actually come from the executive 
area over here to Capitol Hill. Many have adapted to that 
situation, and we've tried to adapt our institutions to that.
    In the Senate, for example, we had a coffee in the morning, 
on Monday, with the new President of Georgia and members of his 
cabinet. Now, he is a former American student, very savvy about 
all of these things. As is increasingly the case, a large press 
contingent accompanied him over to the Foreign Relations 
Committee room in S-116, where these ceremonial occasions 
occur, including a fairly large cadre of people in the written 
press. And this is long before he gets to the White House. I 
saw him on television with the President yesterday, quite an 
itinerary.
    More and more, these intersections occur. They have some 
risks for the chief executive or the foreign minister or what 
have you, particularly when they bring along all of their own 
press with them, and their own press intersects with our press. 
After all, it's not an exclusive situation outside of S-116. 
Everybody was there, all asking questions back and forth.
    More and more, I've noticed, the chief executives have 
messages that they utilize our room to make, statements about 
how they are received, how gracious we are, how much we agree 
with them, how fine we feel they are.
    Now, sometimes it doesn't work. The other instance of this 
that's historical was President Marcos, for example, using an 
American talk show on a Sunday to declare a snap election in 
the Philippines. Now, you'd ask, well, why would President 
Marcos use American television to announce an election in his 
own country? Well, because really the relationship between the 
United States and the Philippines was at stake. He felt, in 
essence, that we doubted whether he had the backing of the 
people, and he wanted to indicate to us that he did, so he was 
going to have a snap election and challenge the United States 
to come over and watch it. This was, if not the beginning of 
observations, certainly a leap forward, and it was substantial.
    I mention all this because I saw the Philippine Ambassador 
yesterday. We had a meeting, in this same S-116, with the ten 
ASEAN Ambassadors. They're about to have another election. Now, 
this is a different situation, although observers, as I 
understand, will once again be going--from NED, from the 
International Republican Institute from the National Democratic 
Institute, and so forth--over there. But in this particular 
case, not only did Marcos invite the group--which President 
Reagan asked me to chair, so I was involved in this--but after 
we made a finding and announced in the Philippines that the 
election was filled with fraud and abuse, in essence, Marcos 
then went onto the Sunday shows. I can remember appearing on a 
split screen with him on three different shows, in which he was 
still debating, in the United States, the efficacy of his 
election and all of this, which is interesting. It finally 
didn't work, and, as you know. We advised him to wait, which he 
did, and Corazon Aquino became the President.
    I mention this because public diplomacy works both ways. It 
appears to me that, from the start that Marcos made, it was 
relatively unsuccessful for his purposes. Others are doing 
better at it. This may bode well, then, for journalism abroad. 
As we think about this new program envisioned by my 
legislation, or however it's amended and modified, we may have 
an audience there of chief executives, foreign ministers, 
others, who understand this better, who understand the value to 
them, of having these contacts.
    I would like to ask you how should we approach this from 
that standpoint. We have to pass the bill here, so I will be 
seeking the votes of fellow Senators, as well as support in the 
House and so forth. The initiative comes, after all, after the 
strong support of the President in the State of the Union 
Message to double the NED budget and to go after this, so it's 
not entirely an initiative of my own. There's a pretty good 
force coming behind us there.
    While we're at work here, what sort of diplomacy ought we 
to be having with others abroad so that we inform them of our 
debate and so that this is not a covert activity in which the 
United States is trying to somehow change their minds, but 
rather a cooperative affair to build their institutions and a 
capacity for all of us to understand each other better? We have 
veterans at the trail in this. How would you approach the other 
governments? What sort of public diplomacy should we be doing, 
maybe as a committee, as we go about our work?
    Mr. Powell. One suggestion would be to begin with our 
friends. And I think that it's interesting to find how many 
governments have public diplomacy entities, some of them called 
departments of public diplomacy.
    There are also--with whom we clearly should establish----
    The Chairman. Yes, good idea.
    Mr. Powell [continuing]. A dialog. Then there are the NGOs. 
The GAO has identified some of them. Freedom House report is 
committed to protect journalists--many are represented here in 
this room--who also carry the same message in many of the same 
places.
    Trying to build these kinds of relationships and support 
from more than one organization can have a number of benefits. 
I mean, the more sources of funding a courageous editor has, 
the higher his credibility. The French discovered trying to 
support a newspaper in Gabon, they just gave French Government 
money to the newspaper, and it was immediately discredited. 
Whereas, if they had worked with others, including some French 
NGOs, they might have had a better result.
    Another is just through these dialogs, we find out what 
we're doing, and we can reduce rivalries and overlapping 
comparative efforts that might be counterproductive. And, 
finally, through the National Endowment for Democracy and the 
support that you're proposing. This could really be the 
beginning of a real knitting together of a community of 
interest in this area. And it embraces not only a number of 
organizations here in the United States, but an even larger 
number of organizations around the world, some in places you 
might not expect, like Uzbekistan. And that certainly helps 
promote exactly what the goals are that we're all trying to 
achieve that you've articulated so well.
    Mr. Mater. One of the first workshops I did after the 
collapse of communism in Eastern Europe was in Bratislava--now 
the capital of Slovakia--then it was still in Czechoslovakia. 
But I had dinner, the first night, with the Minister of 
Culture, who asked me, ``Why are you doing this?'' It was a 
question, quite frankly, I hadn't expected. And I said, ``What 
do you mean?'' And he said, ``You know, you and your colleagues 
are here, and you're teaching people how to run independent 
newspapers. Why?'' And I launched into what I told him was a 
selfish argument, that I had been through one war in Europe, 
and I didn't want to go through another one, that stability and 
democracy required a free and independent press. We discussed 
it on that level. And, at the end, I convinced him, but I don't 
know I can convince everybody. But that was part of the 
argument. And I have run into that. He was the first, but he 
wasn't the last to ask me, ``Why are you here?'' And 
particularly since we were private citizens--we were using 
government money at the time, but we were not working for the 
government.
    The Chairman. Well, that's a very good point, that when 
you're doing the Lord's work, there's no need to be bashful 
about it. Indicate that you're there really to build 
institutions.
    Mr. Mater. Well, the Minister of Culture, was quite 
suspicious of our purpose and understandably so, ``Why are you 
here? Why are you doing this?''
    The Chairman. I think that that suspicion probably would be 
shared by many governments around the world.
    Mr. Mater. Well it came up later, too. But, by that time, I 
was prepared for it.
    Mr. Wimmer. I had the same experience on my very first 
attempt to persuade another government to change its laws. We 
were beginning a 3-hour meeting with the parliamentarian who 
had drafted it and headed up the committee, and he said to me, 
through the interpreter, ``Well, I drafted the constitution in 
1992, so I know this is constitutional. What do we have to talk 
about?'' It was humbling for me, in that it informed how we did 
this from that point on, that there are treaties, there are 
reasons why they should do it legally. But, most importantly, 
as Gene said, there are reasons to foster independent media 
that are central to our national security interests.
    So I tend to think that in the types of meetings that you 
discussed, you started the process by introducing this 
legislation, by centralizing NED, possibly, and by showing that 
the Senate Foreign Relations Committee is concerned about 
independent media, which is a great indicator of its 
importance. To the extent that the President or the Secretary 
of State or the Secretary of Defense says, in one of these 
meetings, ``Well, Mr. President, we're very concerned with the 
state of independent media in Slovakia,'' then that carries a 
really important message.
    The Chairman. I appreciate your testimony very much, and we 
look forward to hearing from all three of you, both formally 
and informally, in the future as we progress along this way. 
Sometimes Senators make comments about foreign media, about 
these issues, and these are heard, they are picked up by the 
public. At the same time, to the extent that our committee, a 
bipartisan committee, weighs in from time to time, conceivably 
this may have more effect. To do so, it has to take some 
responsibility, thoughtfully and effectively, without reacting 
to the headline of the morning to examine more institutionally.
    Each of you have spent a lot of time thinking about this, 
philosophically and on the ground, and that's why we appreciate 
your expertise today. You've been very helpful, I think, in 
raising questions, for the committee record, that others will 
read and refer to so that they will have this advice and 
counsel.
    I also thank you for your patience, in waiting through our 
vote and interruptions. We appreciate the quality of this 
hearing, which we think has been very helpful and productive.
    Thank you, and the hearing is adjourned.
    [Whereupon, at 12:11 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record

                                  U.S. Department of State,
                                 Washington, DC, February 27, 2004.

The Honorable Richard G. Lugar, Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Thank you for the opportunity to appear before your committee this 
week. This letter provides further information on two requests raised 
by committee members during the hearing.
    The first request was for the mission of public diplomacy. Broadly, 
the mission of American public diplomacy is to engage, inform and 
influence foreign audiences in order to increase understanding for 
American values, policies and initiatives and, thereby, to create an 
international environment receptive to American interests. Building on 
this, my four public diplomacy strategic priorities are: the Arab and 
Muslim world; non-elite, non-traditional audiences, especially the 
young; new initiatives, thinking outside the box; and strategic 
direction and performance measurement.
    For the committee's information and use, I have attached our 2004 
public diplomacy strategy report that was requested by the House and 
Senate Appropriatations Committees in the conference report 
accompanying the FY 2004 Omnibus Appropriations Bill. This report gives 
greater detail about our mission and our strategic priorities.
    The second request was for more information on Economic Support 
Funding for counter terrorism activities in East Africa. On January 21, 
the Department of State notified Congress of its intent to use $1.2 
million to enhance public diplomacy efforts in five target countries in 
support of the President's East Africa Counterterronsm Initiative. The 
target countries are Djibouti, Ethiopia, Kenya, Tanzania and Uganda. 
Earlier this month, the notification of our intent to obligate FY 2003 
and prior year Economic Support Funds expired without objection, and 
these funds are now available for apportionment and allotment.
    In November 2003, the African Bureau Public Affairs Office met in 
Addis Ababa with Embassy Public Affairs Officers from the target 
countries and military information officers to specify the Public 
Diplomacy tools that would best encourage strong public support for the 
Global War on Terrorism and counter extremist views, both secular and 
religious. Specific components agreed upon and ready for implementation 
now include three broad areas:

  <bullet> Increasing media outreach and information dissemination in 
        East Africa;

  <bullet> Supporting English language and teaching programs in East 
        Africa and providing target audiences with a better 
        understanding of core democratic values, including tolerance;

  <bullet> Conducting exchange and speaker programs on core values of 
        democracy and governance.

    Target audiences will include moderate elites, government, civil 
society, media and youth. We expect funds to be allotted to post by 
mid-March.
    I hope this provides the information requested by the committee. 
Please let me know if there is other information you need.
            Sincerely
                                    Margaret DeB. Tutwiler.

Enclosure: As stated.

                   United States Department of State

                      Public Diplomacy Strategy \1\
---------------------------------------------------------------------------

    \1\ Drafted by: Office of the Under Secretary for Public Diplomacy 
and Public Affairs.
---------------------------------------------------------------------------

                               (Revised)

                              MARCH 1, 2004

    This document updates the public diplomacy strategy report 
submitted to the Appropriation Committees June 1, 2003. The mission of 
American public diplomacy remains to engage, inform and influence 
foreign audiences in order to increase understanding for American 
values, policies and initiatives and, thereby, to create an 
international environment receptive to American interests. Similarly, 
the six strategic guidelines described in the report remain valid: to 
maintain aggressive policy advocacy; to communicate the principles and 
values which underpin our policies and define us as a nation; to engage 
wider and younger audiences; to form partnerships with local 
institutions, media, NGOs and others to extend our reach, increase our 
credibility and expand our own understanding of others' concerns; to 
use new and more powerful channels of communication, in particular 
television and the Internet; to exploit research and analysis to 
improve our own understanding of the political, economic and 
information conditions that affect our ability to communicate with 
foreign audiences.
    Building on these guidelines, the new Under Secretary of State for 
Public Diplomacy and Public Affairs, in office a little over three 
months, is sharpening the focus on four public diplomacy strategic 
priorities:

  <bullet> The Arab and Muslim world;

  <bullet> Non-elite, non-traditional audiences, especially the young;

  <bullet> New initiatives, thinking outside the box;

  <bullet> Strategic direction and performance measurement.

                       THE ARAB AND MUSLIM WORLD

    The primary problem confronting U.S. public diplomacy today is the 
deterioration of America's image abroad. The deterioration is most 
stark in the Arab and Muslim world, and it is there that we will, first 
and foremost, focus our public diplomacy energies and resources.
    Reflecting this priority, 25% of Department exchange funding will 
be dedicated to the Middle East and South Asia in FY-2004, compared 
with 17% in FY-2002. We have restarted the Fulbright program in 
Afghanistan, after a twenty-five year hiatus, and in Iraq. We continue 
to rebuild our public diplomacy program in Afghanistan. Public 
diplomacy offices are heavily committed in Iraq, and public diplomacy 
will be a significant part of our Embassy program in Iraq later this 
year. We will establish fifty-eight American Corners in the Middle East 
and South Asia in FY-2004, including ten in Afghanistan and fifteen in 
Iraq. The Department's Bureau of International Information Programs 
(IIP) has quadrupled its output of Arabic language translations for 
distribution in the Middle East. In addition, public diplomacy is a 
crucial element in the President's Middle East Partnership Initiative 
(MEPI), which is coordinating reform policy and programs in the region.
    Our public diplomacy focus on the Muslim world extends beyond the 
Middle East and South Asia to countries with significant Muslim 
populations in Southeast Asia, Central Eurasia and Africa, as well. 
Although the public diplomacy challenge may be different in various 
countries, the need exists to reach out to Muslim populations in all 
these regions with effective public diplomacy programs. Similarly, as 
we focus on areas where deterioration of America's image is most 
severe, we must not neglect those countries where our image is 
positive; we must ensure that a problem does not develop tomorrow where 
one does not exist today.

       NON-ELITE, NON-TRADITIONAL AUDIENCES, ESPECIALLY THE YOUNG

    The second strategic priority is to increase the focus of our 
public diplomacy programs on a new audience, the non-elites, especially 
among the younger generation. Traditionally, U.S. public diplomacy has 
focused on educated audiences, those with influence or access to 
influence and opportunity. We will continue to engage these important 
audiences, advocating our policies and explaining our actions. We will 
continue academic and professional exchanges at more senior levels.
    At the same time, we must do a better job reaching young non-elites 
and those who traditionally lack access not only to information about 
the United States but also to those tools--specifically the tools of 
education--which will help them participate in the kind of world the 
United States seeks to advance, a world of political and economic 
freedom and opportunity. It is in the interest of the United States 
that these young people see their futures lying with a constructive 
international system of cooperation and common values rather than with 
a destructive ideology of anti-Americanism.
    Expanding the circle of opportunity is the concept behind 
Partnerships for Learning (P4L), an initiative of the Bureau of 
Educational and Cultural Affairs (ECA), which seeks to extend our 
exchange programs to undergraduate college students and to high school 
students. P4L has initiated our first high school exchange program with 
the Arab and Muslim world. Today, 170 high school students from 
predominantly Islamic countries are living with American families and 
studying at local high schools. Another 450 high school students from 
the Middle East and South Asia will come here in 2004 for the next 
academic year. P4L youth programs extend beyond the Middle East and 
South Asia, for example, to Malaysia and Indonesia.
    In addition, seventy undergraduate students, men and women, from 
North Africa and the Middle East will come to the U.S. in FY-2004 for 
intensive English language training prior to their enrollment in 
university degree programs.
    Through our School Internet Connectivity Program, 26,000 high 
school students from the Middle East, South Asia, South East Europe, 
Central Asia and the Caucasus have collaborated since 2000 with U.S. 
students in online projects focused on building mutual understanding 
across the topics of current affairs, entrepreneurship, health, and 
civic responsibility. The Under Secretary is also initiating a program 
of micro-scholarships for English learning and to allow foreign 
students who otherwise would lack access to attend American Schools in 
their own countries. Micro-scholarships will follow the model of the 
successful micro-credit programs through which the U.S. has helped 
numerous entrepreneurs and small businesses in developing countries.
    English teaching is a priority program for reaching out to non-
elite audiences. ECA is devoting an additional $1,573,000 to English 
teaching and creating five new Regional English Language Officer 
positions in FY 2005, bringing the total to twenty. This is not enough, 
but it is a start. Whether through direct teaching or training 
instructors, English language programs offer great scope for advancing 
public diplomacy objectives. For example, over the past five years, 
Embassy Damascus estimates that it has trained over 9,000 of Syria's 
12,000 English-language teachers, a terrific example of outreach to the 
successor generation in Syria.
    Public diplomacy also reached beyond traditional elite audiences 
when ambassadors and embassy staff visit local schools and other often 
neglected venues simply to talk about America. We are encouraging all 
our diplomats and visiting officials to dedicate a little time to this 
valuable though low-key outreach.
    The report by the Advisory Group on Public Diplomacy for the Arab 
and Muslim World, chaired by Ambassador Edward Djerejian, underlined 
the lost opportunity which exists because the people in countries which 
receive substantial U.S. assistance do not know that the help is coming 
from America. Most Egyptians know that the Japanese helped to build the 
Cairo opera house; few know that billions of dollars in American aid 
has helped to build water, power, sanitary and other infrastructure 
systems which contribute to their well-being every day. The State 
Department and USAID are jointly committed to ensuring that recipients 
of assistance recognize America's role in helping them. A joint Public 
Diplomacy Policy Group works to that end as part of the overall State-
USAID strategic plan.

               NEW INITIATIVES, THINKING OUTSIDE THE BOX

    Even as we continue to rely on powerful traditional exchange, 
information and advocacy programs, we need also to search for new ways 
to reach our audiences, audiences previously outside our focus and also 
long-standing audiences now subject to new media and other influences 
with which our public diplomacy must compete. To this end, the Under 
Secretary has created new positions and hired staff with responsibility 
for specific functions, including private sector cooperation, sports 
programming and ``book programs.'' The responsibilities of these 
positions are open-ended in that, though focused on specific areas, 
they are intended to explore all possibilities for creative and 
effective public diplomacy within their purview. For example, ``book 
programs'' should encompass not only traditional books in paper but 
also distribution through CDs and other contemporary media.
    The possibilities for private sector cooperation are nearly 
boundless, from Sister Cities and humanitarian efforts such as the 
Wheelchair Foundation project in Afghanistan to Steinway & Sons and 
Motorola in Iraq. Current interagency coordination tactics play an 
important role in identifying expanded opportunities for the private 
sector. Public-private partnerships, corporate social responsibility 
and strategic philanthropy all have the unique ability to help advance 
the public diplomacy goals of the State Department. In addition, 
building alliances with key industries including technology, healthcare 
and education can work to complement current Administration 
initiatives.
    Public Affairs Officers and public diplomacy staff in the field are 
a rich source of creative ideas. In order to foster this creativity and 
spread its reach, the Under Secretary has created the PD Global Forum, 
a web-based discussion site intended to allow unrestricted horizontal 
communication between PD professionals around the world, sparking 
ideas, discussion and debate to help us all do a better job. PD Global 
Forum will also be a rich source of support for the young PD officers 
who now staff many of our posts, often the embassy's only PD officer. 
The PD Global Forum is indicative of the Department's commitment to 
creativity in public diplomacy.

            STRATEGIC DIRECTION AND PERFORMANCE MEASUREMENT

    In order to ensure that public diplomacy resources are directed 
towards strategic priorities and that programs are effective in 
advancing those priorities, the Under Secretary and the Department are 
undertaking a broad review of all public diplomacy programs as the 
starting point for developing a continuing process of program 
evaluation. Under the direction of the Under Secretary's office, and 
drawing on outside expertise, ECA, IIP and PA will work with the 
regional bureaus and posts overseas with the goal of completing an 
initial survey of programs by the summer of 2004. The survey should 
tell us how public diplomacy professionals in the field judge current 
programs. From this beginning, we plan to develop further mechanisms to 
evaluate the impact of specific programs in advancing public diplomacy 
objectives. The ultimate objective is to develop a basis for resource 
allocation decisions.
    Although we expect useful feedback from the survey right away, 
evaluation will be a long-term process. Foreign attitudes and public 
opinion are affected by a myriad of factors, many beyond our influence 
or control. Impact for some programs may not be open to quantifiable 
measurement. We are, however, committed to developing a culture of 
measurement for public diplomacy to ensure that limited resources are 
allocated in the most effective way possible.
    We consider an effective program evaluation process to be a 
necessary component for strategic planning and direction of public 
diplomacy. The Under Secretary is taking other steps, including the PD 
Global Forum, to strengthen communication and a sense of common purpose 
in the public diplomacy community of the State Department. Further 
steps, including the issue of a formal strategic planning office within 
the Office of the Under Secretary are also under consideration.

                               CONCLUSION

    This revised report is not intended to be a comprehensive 
recapitulation of State Department public diplomacy programs and issues 
covered in the June, 2003, report. Key programs highlighted in that 
report, such as Culture Connect, television co-operatives and IIP's 
websites, remain priorities though they are not featured in this 
update. The current report is a status report of where we stand about 
three months into the tenure of a new Under Secretary for Public 
Diplomacy and Public Affairs.
    This report does not address issues of the Broadcasting Board of 
Governors (BBG). While the Under Secretary for Public Diplomacy and 
Public Affairs serves as the Secretary's representative on the board, 
the BBG is an independent agency. Department coordination with the BBG 
is continuous, but any strategy report on international broadcasting 
should come directly from the BBG.

                                 ______
                                 

 Response of Hon. Margaret DeB. Tutwiler to an Additional Question for 
              the Record Submitted by Senator Bill Nelson

Background:

    Ms. Tutwiler: The Dante B. Fascell North-South Center, named after 
our esteemed former colleague from the House, Dante B. Fascell, 
provides timely research, policy seminars and training activities that 
seek solutions to specific problems in the Western Hemisphere that 
prove time and again their importance.
    The Department of State included funding for the Center in its FY 
2004 budget request. The Senate included $2 million in its FY 2004 
Commerce-Justice-State Appropriations Report (S. Rept. 108-144), but no 
funding was provided this fiscal year. However, in order to carry out 
important projects, it needs to continue to receive Federal funding in 
FY 2004.

    Question. Would you look closely at the need for such a facility 
and comment on the value the North-South Center provides? Would you 
look seriously at the possibility of reprogramming funds for the Center 
in FY 2004?

    Answer. The Department of State values our long partnership with 
the North-South Center and the positive impact it has had in the 
Western Hemisphere over the years.
    The Conference Report accompanying the Consolidated Appropriations 
Act, 2004 (as enacted in P.L. 108-199) does not include funding for the 
Center. The Center is currently operating on funds remaining in two 
open cooperative agreements from the Department of State.
    Because of the redirection of resources towards the Islamic world 
and plans for the rebuilding of Iraq, there is little flexibility for 
the Bureau of Educational and Cultural Affairs to fund any expanded 
activities for the North-South Center. We are therefore unable to 
commit to reprogramming funds for the Center in FY 2004.

                                 <all>

</pre></body></html>
